<html>
<title> - INTERNATIONAL SCHOOL FEEDING INITIATIVES</title>
<body><pre>[Senate Hearing 106-909]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-909

                INTERNATIONAL SCHOOL FEEDING INITIATIVES

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY
                          UNITED STATES SENATE


                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                                   ON

                INTERNATIONAL SCHOOL FEEDING INITIATIVES

                               __________

                             JULY 27, 2000

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


                   U.S. GOVERNMENT PRINTING OFFICE
70-293                     WASHINGTON : 2001


_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                  RICHARD G. LUGAR, Indiana, Chairman

JESSE HELMS, North Carolina          TOM HARKIN, Iowa
THAD COCHRAN, Mississippi            PATRICK J. LEAHY, Vermont
MITCH McCONNELL, Kentucky            KENT CONRAD, North Dakota
PAUL COVERDELL, Georgia              THOMAS A. DASCHLE, South Dakota
PAT ROBERTS, Kansas                  MAX BAUCUS, Montana
PETER G. FITZGERALD, Illinois        J. ROBERT KERREY, Nebraska
CHARLES E. GRASSLEY, Iowa            TIM JOHNSON, South Dakota
LARRY E. CRAIG, Idaho                BLANCHE L. LINCOLN, Arkansas
RICK SANTORUM, Pennsylvania

                       Keith Luse, Staff Director

                    David L. Johnson, Chief Counsel

                      Robert E. Sturm, Chief Clerk

            Mark Halverson, Staff Director for the Minority

                                  (ii)

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing:

Thursday, July 27, 2000, International School Feeding Initiatives     1

Appendix:
Thursday, July 27, 2000..........................................    53
Document(s) submitted for the record:
Thursday, July 27, 2000..........................................   117

                              ----------                              

                        Thursday, July 27, 2000
                    STATEMENTS PRESENTED BY SENATORS

Lugar, Hon. Richard G, a U.S. Senator from Indiana, Chairman, 
  Committee on Agriculture, Nutrition, and Forestry..............     1
Cochran, Hon. Thad, a U.S. Senator from Mississippi..............    30
Harkin, Tom, A U.S. Senator from Iowa, Ranking Member, Committee 
  on Agriculture, Nutrition, and Forestry........................     8
Leahy, Hon. Patrick J., a U.S. Senator from Vermont..............    10
Daschle, Tom, a U.S. Senator from South Dakota...................     9
Johnson, Hon. Tim, a U.S. Senator from South Dakota..............     2
Durbin, Hon. Richard J. U.S. Senator from Illinois...............    13
McGovern, Hon. James P., A U.S. Representative from Massachusetts    15
Dole, Hon. Bob, Former Senator, from the State of Kansas.........     6
McGovern, Hon. George, Ambassador, Food and Agriculture 
  Organization of the United Nations, Former Senator, from the 
  State of South Dakota..........................................     4
                              ----------                              

                               WITNESSES
                                PANEL I

Bertini, Catherine, Executive Director, World Food Program, Rome, 
  Italy..........................................................    22
Glickman, Dan, Secretary, U.S. Department of Agriculture, 
  Washington, DC.................................................    19

                                PANEL II

Brookins, Carole, Chairman & CEO, World Perspectives, Inc., 
  Washington, DC.................................................    42
Hackett, Ken, Executive Director, Catholic Relief Services, 
  Baltimore MD...................................................    38
Levinger, Dr. Beryl, Senior Director, Educational Development 
  Center and Distinguished Professor, Monterey Institute of 
  International Studies, Monterey, CA............................    34
Levinson, Ellen, Executive Director,, Coalition for Food Aid, 
  Washington, DC.................................................    40
                              ----------                              

                                APPENDIX

Prepared Statements:
    Lugar, Hon. Richard G........................................    54
    Dole, Hon. Bob...............................................    56
    Durbin, Hon. Richard J.......................................    58
    McGovern, Hon. James, P......................................    63
    McGovern, Hon. George........................................    71
    Bertini, Catherine...........................................    81
    Brookins, Carole.............................................   112
    Glickman, Dan................................................    74
    Hackett, Kenneth.............................................    96
    Levinger, Beryl..............................................    89
    Levinson, Ellen S............................................   105
Document(s) submitted for the record:
    Proprietary Concept Paper: Food For Education And Economic 
      Development, submitted by Carole Brookins..................   118

 
                INTERNATIONAL SCHOOL FEEDING INITIATIVES

                              ----------                              


                        THURSDAY, JULY 27, 2000

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:02 a.m., in 
room 216, Hart Senate Office Building, Hon. Richard G. Lugar, 
(Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Lugar, Cochran, 
Harkin, Leahy, Daschle, and Johnson.

OPENING STATEMENT OF HON. RICHARD G. LUGAR, A U.S. SENATOR FROM 
  INDIANA, CHAIRMAN, COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    The Chairman. This hearing of the Senate Agriculture 
Committee is called to order. We welcome all to this important 
hearing this morning. We convene to hear testimony on important 
proposals to implement a school feeding program in developing 
countries. Ambassador George McGovern and Senator Robert Dole 
have worked in recent months to promote a proposed initiative 
in which the United States, in tandem with other countries, 
would work with recipient governments and communities to 
establish a preschool and school feeding program.
    In our country, our national school lunch program feeds 27-
million-children each day to maximize physical and mental 
development. As Ambassador McGovern has pointed out, 
approximately 300-million-children in the world go hungry each 
day. He has proposed an initiative based upon experiences with 
the United States program and carried out internationally to 
help address this issue.
    Given the magnitude of the challenge, the proposal would 
necessarily command a tremendous amount of resources. The 
proposal forward by Ambassador McGovern and Senator Dole calls 
for an investment, once fully implemented, of approximately $3 
billion, shared between the United States and other donor 
nations each year. Of this $3 billion total, approximately $750 
million would be the United States share.
    Clearly identifying and securing the funding for such an 
initiative is one the principal factors we will need to explore 
today in considering the proposal. This past weekend, at the G-
8 Summit in Okinawa, President Clinton proposed a $300 million 
initiative to improve school performance in developing nations. 
That program would use the Commodity Credit Corporation's 
surplus commodity purchase authority to implement school 
feeding programs in recipient nations. A number of questions 
need to be addressed to move these proposals now from paper to 
implementation, and one of the most important factors is to 
determine the necessary infrastructure that must be in place in 
a potential recipient country in order to carry the program out 
effectively.
    What sort of governmental, agricultural, and educational 
groundwork must be present? How does the program guard against 
fraud and abuse, ensuring that the resources committed are used 
as intended? Likewise, we are eager to learn more about exactly 
how the initiative would be carried out? Would it be simply a 
donation of commodities, or will additional funds be required? 
How does the program translate a commodity donation, as 
suggested by the President, to actual implementation of a 
school feeding program on the ground in individual places?
    Does the World Food Program assume primary responsibility, 
as suggested by Ambassador McGovern? And what is the role of 
the private voluntary organizational structure? What is the 
role of the private sector, the agriculture community? Clearly, 
these and other questions will be addressed today and in other 
fora as we take a look at this ambitious proposal.
    We are pleased to have a very distinguished group of 
witnesses before the Committee today, led off by Ambassador 
George McGovern and Senator Bob Dole, both former colleagues 
and, more importantly, former members of this committee. And 
following this testimony, we will hear from Senator Richard 
Durbin, Congressman Jim McGovern, who have been leaders in 
their various chambers in promoting this concept.
    Secretary Glickman will appear with Ms. Bertini, and then a 
whole host of people that I shall not enumerate now but will 
introduce fully at the time of their appearances.
    We welcome our colleagues George McGovern and Bob Dole. We 
appreciate so much your leadership in so many ways, and in this 
particular initiative, we are eager to hear from you.
    [The prepared statement of Chairman Lugar can be found in 
the appendix on page 54.]
    I will ask, first of all, if Senator Johnson has any 
opening comment, and after his comment we will proceed to the 
witnesses.

STATEMENT OF HON. TIM JOHNSON, A U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Well, thank you, Mr. Chairman, and thank 
you for holding this timely and very important hearing. Senator 
Daschle wanted very badly to be here, but some obligations 
dealing with Governor Miller, our newest colleague to the 
Senate, this morning has got him involved in that. But I 
appreciate the opportunity to participate in this hearing to 
listen to the proposals for an international school lunch 
program being proposed by Ambassador George McGovern and 
Senator Bob Dole, as you note, both former members of this 
committee.
    But I am particularly pleased and honored to have an 
opportunity to welcome Ambassador McGovern to the hearing this 
morning. Ambassador McGovern has served our State of South 
Dakota and the Nation at every level, from his time as a bomber 
pilot in World War II to his role as an educator at Dakota 
Wesleyan University, to his service in the House of 
Representatives, on President Kennedy's administration as 
Director of Food for Peace, as a Member of the U.S. Senate and 
a nominee for President, and currently as Ambassador to the 
Food and Agriculture Organization, FAO, of the United Nations.
    I am pleased and proud to think of George McGovern as a 
mentor, a confidant, an advisor, and, most importantly, a 
friend.
    Throughout all of his long and distinguished career of 
public service, Ambassador McGovern has always had food and 
nutrition in dealing with hunger at the very top of his 
priorities. This proposal to provide school lunches to hungry 
children across the entire globe, especially in parts of Asia, 
Africa, Latin America, and Eastern Europe, I think is 
extraordinary. Utilizing organizations such as United Nations, 
private voluntary organizations, and other food assistance 
agencies, we have an opportunity to play a role in delivering a 
universal school lunch program, building on what has been a 
remarkably successful program in the United States.
    We have 300-million-hungry-school-aged children in these 
places throughout the world, and of that total, an unfortunate 
number of 130-million-school-aged kids are currently not even 
attending school. So this program I think is an innovative, 
exciting proposal. I am pleased that the Clinton administration 
has picked up on it with a significant pilot project proposal 
of their own, and I look forward to the testimony today from 
Senator Dole and Ambassador McGovern, as well as Secretary 
Glickman and the rest of the panels that you have organized for 
this hearing today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Johnson.
    Let me just outline the structure of the hearing for a 
minute. As has been mentioned, we will be having an important 
event, the swearing-in of a new Senator on the floor at about 
11:00 a.m., with a roll call vote following that swearing-in 
and statement by incoming Senator Miller. I hope that there are 
not interruptions before that point, but we have important 
business to do, so I am going to ask each of the witnesses to 
try to summarize their comments in 5-minutes. The Chair will be 
liberal in recognizing that may not be possible, and these are 
important facts we need to have before us. We will ask Senators 
to likewise confine their questioning to 5-minutes given the 
spillover that inevitably happens when somebody asks a question 
in the fourth minute and there is an extensive answer. But in 
that way, perhaps we will move ahead so that we can give at 
least a good audience to each of our witnesses.
    I just want to say on a personal note that it is a real 
pleasure to have Bob Dole here. I asked Bob Dole, after I was 
elected to the Senate, for his help in getting on this 
committee, and as always, he was very helpful. And when it 
finally came down, as a matter of fact, to a trade with the 
late Senator John Heinz, who accepted Banking, I got 
Agriculture as the low man on the totem pole at the end of the 
table. As I pointed out, and Bob and George will recognize 
this, at one end of the table was Herman Talmadge and Jim 
Eastland, often in a pillar of smoke that surrounded both of 
them, and they conducted the business. Occasionally, when Bob 
came in, he was senior enough to interject a thought, but in 
essence, a lot was going on at the other end of the table. Pat 
Leahy and I were at the far ends.
    George McGovern and Hubert Humphrey were both members of 
our committee, and, of course, this indicates the importance of 
the Committee, likewise the importance that people saw in their 
work in agriculture as they moved on to national leadership and 
as leaders of their respective parties. So we are honored that 
both are here.
    I will ask Ambassador McGovern to testify first, to be 
followed by Senator Dole, and then questions of the two of you. 
Ambassador McGovern?

    STATEMENT OF HON. GEORGE MCGOVERN, AMBASSADOR, FOOD AND 
AGRICULTURE ORGANIZATION OF THE UNITED NATIONS, AND FORMER U.S. 
                   SENATOR FROM SOUTH DAKOTA

    Ambassador McGovern. Thank you very much, Mr. Chairman. I 
am not going to read my statement, but I would like to hand it 
in.
    The Chairman. It will be made a part of the record, and 
that will be true of all the statements today so that each one 
of you will know that.
    Ambassador McGovern. Thank you very much.
    I might say, Mr. Chairman, in connection with your comment 
about lobbying my friend, Senator Dole, to get on this 
committee, when I arrived here in 1962, I lobbied every 
Democratic Member of the Senate to get on this committee, and I 
noticed some of them smiled about my appeal. I discovered later 
that of the eight new Senators who came here that year, I was 
the only one who requested Agriculture, and three people on the 
Committee requested to get off.
    [Laughter.]
    Ambassador McGovern. But I want to say that I have always 
regarded it as the most important committee on which I served 
during 18-years in the Senate. I was here on this committee 
from the first day I arrived until the day I left, not entirely 
a voluntary departure on my part, but I enjoyed it all. I think 
it is a great committee. It embraces some of the most essential 
concerns in our national life. And I am especially pleased to 
be here with my long-time friend and colleague, Bob Dole. He 
and I formed a bipartisan coalition when we were in the Senate 
on matters that related to agriculture or related to food and 
nutrition. And I think it is fair to say we led the way during 
the decade of the 1970s in reforming and expanding the Food 
Stamp program, the school lunch and school breakfast programs, 
the WIC program, developing guidelines for the American people.
    The reason we were so successful in that effort was not 
only the content of the legislation that we pushed, but because 
we did have a strong bipartisan base that embraced every member 
of this committee and many other members of the Senate.
    We have also both been Presidential contenders, and if Vice 
President Gore and Governor Bush show any signs of slippage, we 
are ready to take over again.
    [Laughter.]
    The Chairman. This is reassuring.
    Ambassador McGovern. But today we want to talk about a 
different vision. We virtually ended hunger in the United 
States in the 1970s. There have been some slippage in that, as 
you know, Mr. Chairman, in the 1980s and 1990s, and that in my 
opinion ought to be corrected. It is embarrassing to me that we 
have 31-million-Americans yet who don't have enough to eat. I 
don't say that they are at the point of starvation, as is the 
case with people abroad, but they don't have enough to eat, and 
we need to correct that as we move forward on this 
international scene.
    Basically, what we are proposing--and we know this can't be 
done overnight--is that the United States take the lead in the 
United Nations agencies, most of which are located in Rome, as 
far as this issue is concerned, to feed every day every school 
child in the world, and hopefully through a WIC-type program, 
do the same thing for preschool children and their pregnant and 
nursing low-income mothers.
    We think this is important because dollar for dollar it 
would probably do more to raise conditions of life for people 
in Third World countries than any other single thing we can do. 
The Secretary of the Treasury, Mr. Summers, has said that 
educating girls is the most important thing you can do in the 
developing world dollar for dollar, and the best way to get 
those girls into school, as it is with the boys, is to 
establish a daily school lunch or school breakfast program.
    What happens when such a program is started is that in a 
comparatively short time, school enrollments double, academic 
performance rises dramatically, and where you can measure it, 
athletic performance improves. The overall health and capacity 
to be an effective citizen improves when children have enough 
to eat.
    You mentioned, Mr. Chairman, that of the 300-million-needy-
school-aged boys and girls, 130 million of them don't go to 
school at all. They are destined for a life of illiteracy. Most 
of those are girls, those 130 million that are not in school, 
and that is because of the favoritism towards boys and 
discrimination against girls and women that exists in so much 
of the Third World. But as the World Food Program can testify--
and we are going to hear from Catherine Bertini later on, the 
brilliant American director of the World Food Program--they 
have discovered that parents urge both boys and girls to go to 
school if they can benefit from a school lunch. It takes off 
some of the pressure on the food budget at home. It enables 
boys and girls to become literature and knowledgeable. And, in 
general, it is a very helpful investment.
    One other point I wanted to make before I yield to Senator 
Dole, Mr. Chairman, is that this program, like so many 
humanitarian programs, also has a self-interest component as 
far as the United States is concerned, and that is what it does 
for American farm markets. Right now almost every farm crop is 
in surplus. This program, as we envision it, and as the 
President outlined it in Okinawa a few days ago, would call on 
the Secretary of Agriculture to purchase farm produce that is 
in surplus; that could range everywhere from Kansas wheat and 
Iowa and South Dakota corn, to Indiana livestock and hogs, to 
citrus fruits, cranberries, nuts, anything that is in surplus. 
It would have the effect of bolstering those markets and 
thereby bolstering farm income.
    In a sense, a large part of this program would probably be 
financed by the additional income of farmers who would be 
paying more taxes in terms of the overall impact of the 
program.
    I think that is about all I need to say, Mr. Chairman, and 
I want to say on behalf of Senator Dole that all those years 
that we worked together in the Senate, I came to see a very 
remarkable public servant. He was the first person I called on 
this program after I got the idea in Rome. He said: Of course, 
I will go along with it if it is fiscally sound and we can 
figure out a satisfactory way to finance it, I will be there.
    Governor Bush, whom I mentioned a while ago, has talked 
about compassionate conservatives. This is one right here--
Senator Dole. He is a model of it, and I am pleased to yield to 
him at this time.
    [The prepared statement of Ambassador McGovern can be found 
in the appendix on page 71.]
    The Chairman. You are a great team.
    Senator Dole. I am pleased to yield to the distinguished 
Democratic leader.
    The Chairman. We are delighted the leader is here, and I 
will ask Senator Dole to testify, and if you would like to make 
a comment, then that would be great.
    Senator Dole. Do you want to go first?
    Senator Daschle. No, Bob. I would rather hear you.

  STATEMENT OF HON. BOB DOLE, FORMER U.S. SENATOR FROM KANSAS

    Senator Dole. I will follow the advice of the Chairman--I 
know you have a very busy morning, and a very busy today and 
tomorrow, I guess--and ask that my statement be made part of 
the record.
    I want to also indicate, I think the Chairman in his 
statement fully understands some of the problems and some of 
the challenges and some of the questions that need to be 
answered, and certainly Ambassador McGovern and I are here with 
a program, but we understand that it has to be paid for. And I 
think in fairness to the Committee, obviously, we would want to 
work with the Committee or anybody we can work with to 
determine how that can be done. And certainly you will hear 
later from Catherine Bertini. This is a bipartisan program. She 
served in the Bush administration and now is Director of the 
World Food Program, has done an excellent job. You will hear 
from others, and we will go back to, you know, Public Law 480, 
which started in the Eisenhower administration. So there are 
many reasons why we ought to be working together and why this 
should not be, certainly is not and never should be a partisan 
issue.
    I don't think they could have any better champion than 
George McGovern. He gives me credit for helping him over the 
last 30-years in many food programs, and I did every time I 
could. But I must say I realized how pressing the problem was 
when Ambassador McGovern had field hearings all across America. 
And we could see the poverty in America, and we could see the 
young people going without food, without one meal a day. And 
that certainly alerted me and I think alerted about every other 
member of the Committee and some members, like Senator 
Hollings, who is not on the Committee, to action. And it was 
truly bipartisan and has been over the years.
    I think during that time, as I recall, I think some people 
questioned our motives, that we don't really believe this, that 
we are doing this because he is from South Dakota and I am from 
Kansas, and if we feed all these people, it makes the prices go 
up for farmers. I mean, some people did question our motives.
    I never looked at it that way, and I can't remember any 
farmer every stopping me and saying, boy, I am glad you are 
voting for all those programs that make the price of my product 
go up. I don't think that ever happened.
    But there are a number of reasons that this should be done 
if we can work it out, and I commend the administration for the 
$300 million pilot program, and I think that will give us a 
good start.
    But Ambassador McGovern is an expert in this. He is at the 
Food and Agriculture Organization now. He has done an 
outstanding job. He has dedicated his life to helping others, 
and this is just one other indication. And if I can play some 
small role in this effort, I would be happy to do that.
    I would point out just one thing. I think everybody has the 
facts. We are talking about the impact on 300-million-children, 
and obviously, when anybody has a problem in the world, they 
look to the United States first. And our generosity knows no 
bounds. The American people, the Congress, we are spending the 
people's money, but I think when we can establish the need for 
a program and structure it in a way that is totally responsible 
and answers some of the questions raised by Chairman Lugar, 
then we are off to a good start.
    So I am here in support of the concept. I am not certain we 
have a program yet, but the concept to me makes a great deal of 
sense, particularly, as Ambassador McGovern talked about, the 
girls. There is discrimination in some of the Third World 
countries when it comes to females, and they don't even have 
the chance to learn to read or write because they don't go to 
school. And as he pointed out, the facts indicate that just one 
meal a day would double the participation of the number of 
young people going to school in some of these countries. So 
that in itself, the fact that they go there for the meal, but 
they also have the education, I think would have a worldwide 
impact.
    So we are here together. We belong to this fraternity that, 
unfortunately, not many people want to join. We both lost a 
Presidential race, but we haven't lost our spirit and we 
haven't lost what I hope is our diligence in looking at issues 
and looking at problems.
    Thank you very much.
    [The prepared statement of Senator Dole can be foundin the 
appendix on page 56.]
    The Chairman. Well, we are grateful that both of you are 
here with us, and we mentioned early on the purpose of having 
this hearing, although it is late in the session, just to try 
to bring some framework for the proposal so that those who are 
involved in authorization, appropriations, and the 
administration can put at least a fine point on this and move 
things ahead.
    I want to recognize the distinguished Ranking Member and 
then the Democrat leader, in that order, for comments or 
questions they may have. Senator Harkin?

STATEMENT OF HON. TOM HARKIN, A U.S. SENATOR FROM IOWA, RANKING 
   MEMBER, COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY

    Senator Harkin. Thank you very much, Mr. Chairman. I 
apologize for being a little late. I want to thank you for 
holding this hearing on an issue or an idea that you wonder why 
we didn't do it before. It is one of things that come up and 
you say, Why didn't we think of this before?
    We have had the food. We have the surpluses. The need is 
there. There are private voluntary organizations and others 
that are in place that I think could handle this, and you 
wonder why this hasn't really been a part of our multilateral 
negotiations with some of the G-8 countries. I am told that you 
mentioned in your remarks about what just happened in Okinawa. 
So, to use a well-worn cliche, this is an idea whose time has 
come.
    I want to thank our former colleagues Senator Dole and 
Ambassador McGovern for their leadership in this area, as it 
has been their leadership going back for many years on feeding 
programs, everything from WIC programs to school lunch, to 
school breakfast, to meals for the elderly. These two men 
sitting in front of us have provided the leadership for many 
years, and I applaud you both for that.
    The only thing I think about when I think of this 
international school lunch program that we are talking about, I 
hadn't really thought about it in its contextual framework, but 
I have been doing a lot of work in the last few years on the 
issue of child labor. And I have traveled to a number of 
countries to look at child labor and what it takes to get these 
kids out of these places and get them into schools. And one 
place where we had a great success was in Bangladesh, and that 
was with the International Program for the Elimination of Child 
Labor under the ILO, the U.S. Government, the Bangladesh 
Government. They were successful in getting about 8,000 or 
9,000 kids, mostly girls, out of factories and into--well, what 
they called school. We might not call it a school. A little 
one-room place with a dirt floor, but at least they had a 
teacher, they had materials, and they were learning to read and 
write.
    And it is interesting that when I was there--this is about 
a year and a half ago--one of the big problems was the lack of 
any food during the day. And they had a real need for that, and 
maybe the kids would bring a piece of fruit or something with 
them in the morning. And I never even thought about this as 
being a part of the program, but I saw it as a real problem for 
them in terms of getting a meal to these kids. And the person 
in charge of these schools in Dhaka said to me that, gee, if we 
just had some way of getting food to these kids, this would 
really help bring them more into school.
    So I see what you are talking about as also a way of 
reducing the instance of child labor around the world, because 
it will get these kids and it will get the families now--see, 
we gave the families some money to help offset the loss of the 
kids' wages. But if you did that and coupled that with a 
nutritious meal, one that would provide them with their minimum 
daily intake of vitamins and minerals, just think what that 
would do to encourage families to get their kids out of the 
workplace and into schools.
    So I see it maybe from a new vantage point here that I 
hadn't thought about before, and that is, what this would do to 
help reduce the incidence of child labor around the world.
    Again, I want to thank you both for your leadership in this 
area, and I look forward to doing what we can to help promote 
this idea and get it moving. We should have done it yesterday. 
Thank you both.
    The Chairman. Thank you, Senator Harkin.
    Senator Daschle.

STATEMENT OF HON. TOM DASCHLE, A U.S. SENATOR FROM SOUTH DAKOTA

    Senator Daschle. Thank you, Mr. Chairman. I apologize for 
being late. I had to host a breakfast meeting this morning for 
our newest Senator, who will be sworn in today, Zell Miller. 
And I am sorry to have missed George's testimony, but I read it 
before, and I compliment both of you on your testimony this 
morning.
    Having heard Bob Dole remind us that we have two former 
Presidential nominees before us today, I think it is evidence, 
again, of the extraordinary leadership these two men have shown 
this country in so many ways, but especially on the issue of 
food and nutrition. These two overcame partisan bickering way 
back when it existed when they were here and addressed the 
skeptics and said we can have a school lunch program and we can 
have a WIC program, and they proved to the country and to the 
world that WIC and school lunch works. And they did it 
overcoming objections within their own parties and all the 
bitterness that comes sometimes with partisanship. They did it.
    They are here to tell us that they feel in the heart of 
hearts that they can extend this concept now internationally, 
and I applaud them for their willingness to once again in this 
Presidential period where, again, the acrimony is evidence, 
that they would be here on a bipartisan basis once again to 
show us the kind of leadership that they have shown us on so 
many occasions means a lot to me personally. And I thank Bob 
Dole and I thank George McGovern.
    Stephen Ambrose is writing another book, and I am glad he 
is writing it. He is writing about George McGovern's them way, 
way back after bombing on 39 missions, turning right around 
virtually the next day and dropping food on those same 
locations that he bombed the day before. I am not sure when the 
book is going to come out, but it goes to the heart of what 
George McGovern is all about.
    George McGovern has been working on food issues all of his 
lifetime, from dropping food in places where they were bombed 
to becoming Food for Peace Director, now working at the United 
Nations, writing books. ``Ending World Hunger in Our Time'' is 
a book that is about to come out, which simply says we can do 
it in our lifetime by the year 2030.
    And so I have had many luxuries and many wonderful 
experiences and many things that I will look back on with great 
pride, none of which will be more important to me than the fact 
that I have had the opportunity to serve with Bob Dole and 
George McGovern. And so I am grateful to them for showing us 
the way again on a bipartisan way to provide us the kind of 
real blueprint for ending world hunger.
    George pointed out in his testimony that there are 300-
million-school-aged-kids around the country that don't have the 
luxury of school lunch today. That is more than exist in this 
entire country, more kids than there are people. I can't think 
of a better marriage than taking the food we have got to the 
kids who need it and doing something that we have already 
demonstrated, and probably the biggest lab test ever to be 
shown here in this country, a lab test that says when you 
provide kids with a school lunch program it works. They learn. 
They become students; they become active participants in 
society. It works. It is one of the best investments we can 
make. So I am grateful to them, and I am very, very pleased to 
have had the opportunity to be here today as they present their 
testimony, and I thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Daschle.
    Senator Leahy.

STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you, Mr. Chairman. You know how much I 
love this committee. It was the first assignment I requested 
when I was elected to the U.S. Senate, and I have had the 
privilege of serving on it for more than 25-years, and much of 
that time with you, Mr. Chairman. And I have had the privilege 
of being both Ranking Member and Chairman of this committee.
    But I mention that long service because I remember--and I 
believe it was my very first meeting--Hubert Humphrey took me 
aside and he said, ``Patrick''--I can see Bob and George 
smiling. You can almost hear him. He said, ``Patrick,'' he 
says, ``we do a lot more than dairy farms on this committee, I 
want you to know.'' And I said, ``Well, yes, Sir, I understand 
that.'' I mean, I was 34-years-old, and I was getting the full 
Hubert Humphrey treatment. And he said, ``We do a lot for 
hungry people, and you just do whatever George McGovern and Bob 
Dole tell you to, and you will be all right.''
    [Laughter.]
    Senator Leahy. And I have been doing that for 25-years, and 
I have been all right on this one, Mr. Chairman.
    But I remember that because I can think of so many times 
that both of you would put together the coalition necessary to 
move through everything from WIC to expansion of the School 
Lunch Program to all the different major feeding programs, 
Public Law 480, all the rest, and do it in a way that 
conservatives and liberals and moderates could join together.
    Hubert was right. The two of you had that soul of it. In 
fact, when I became Chairman of the Committee, the first 
meeting I did, I put the word ``nutrition'' back in there. And, 
Bob, you may well recall at that meeting I mentioned both you 
and George and what you have done.
    This international school lunch initiative, what a 
tremendous thing and how much it can help millions of children 
worldwide. And the partnership we have here, Dan Glickman, the 
Secretary, and Ambassador McGovern. I see my friend Cathy 
Bertini, whom I have admired and worked with all these years, 
the World Food Program; Senator Dole has such enormous 
credibility on the Hill with both parties and the American Food 
Service Association, Marshall Mats and all the rest.
    I think of the strong partnerships with PVOs that can be 
done, Save the Children, Catholic Relief. I see representatives 
of Bread for the World here, others who have worked so long on 
all of this. And I know that the American School Food Service 
Association [ASFSA] has been working with nutrition leaders 
from other countries through its going global program. In fact, 
Cathy and Marshall, I think you had a number of delegates from 
other countries at the National School Lunch Convention this 
summer.
    So these are moral issues. They are not Democrat or 
Republican issues. They are really moral issues. Hunger is a 
moral issue, especially for a country like ours that can easily 
feed a quarter of a billion people and have food left over to 
export all over the world. It becomes a moral issue.
    I look at this chart here that shows every corner of the 
world has undernourished children and families. So it is not 
just childhood hunger. It is about education, which is critical 
to reducing poverty and reaching poor countries alike. If you 
don't do that, you are not going to have democracy. And if you 
don't have democracy, we are going to continue to be fighting 
these wars that leave people devastated.
    Victor Hugo said that no army can withstand the strength of 
an idea whose time has come. Well, the time has come for this 
global school feeding initiative. I think you are going to find 
some heavy, heavy support on the Hill, and I think it is going 
to reflect the kind of things that Ambassador McGovern and 
Senator Dole have done to make us all proud.
    I would ask that my whole statement and the statement from 
the G-8 issued in Okinawa be part of the record, Mr. Chairman. 
And I applaud you because I can't think of a nutrition bill 
that I have been involved with that you and Senator Harkin have 
joined in, and, of course, Senator Daschle from his very first 
days here in the Senate on this committee have helped us on 
that. We have got half of South Dakota here with Tim Johnson 
and Tom.
    [Laughter.]
    Senator Leahy. Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Leahy. 
Before you came in, I pointed out how remote the two of us were 
from Herman Talmadge and Jim Eastland as we sat at the ends of 
the table.
    Senator Leahy. No cigar smoke.
    The Chairman. We have confirmed that, but, likewise, I 
appreciate the testimony of our colleagues. You are an 
inspiration to our bipartisan instincts on this committee. And 
I know that Senator Harkin and Senator Leahy and Senator 
Daschle and Senator Johnson will be wonderful allies. I look 
forward to trying to frame, as I stated in my opening 
statement, something that gets us into legislation or into an 
actual proposal, and that is the purpose of our coming here 
today, to bring this down to the ground. And you have given us 
a marvelous start.
    Before I ask for any more questions of you, do either one 
of you have statements stimulated by what you have heard from 
this panel?
    Senator Dole. With all these fine statements, I am thinking 
about gearing up for the year 2004.
    [Laughter.]
    Senator Dole. I could use all these things in my brochure, 
too.
    Senator Leahy. You have got a good ticket right there.
    Senator Dole. George might be my running mate.
    The Chairman. Ambassador McGovern?
    Ambassador McGovern. You are better at picking a Vice 
Presidential----
    [Laughter.]
    Mr. Chairman, I want to express my thanks for what has been 
an overwhelming response from the Committee. It doesn't really 
surprise me because I think this is the kind of an idea that 
will have a broad base of support in the Congress.
    There were just a couple of points I wanted to add. I heard 
that at the American Food Service Association annual convention 
in St. Louis last week that a number of foreign countries were 
there, including Japan and others, to find out how you set up a 
model school lunch program. They gave us the tribute of being a 
country that has a model school lunch program. I think it is 
quite remarkable. Marshall Mats, who has been referred to here 
earlier and is so well informed on these issues, told me about 
this, and I think that is important for us to keep in mind, 
that the eyes of the world are upon us. And there isn't 
anything in my opinion the United States can do on the world 
scene that would put us in better stead in the eyes of other 
countries than to move ahead on feeding hungry children.
    One other point. I neglected to say that when we look at 
these 130-million-children are not in school, most of them 
girls, the World Food Program has done some studies in half a 
dozen different Third World countries, and they have found that 
these illiterate girls have on the average of six children 
apiece, whereas girls that have gone to school delay marriage 
and practice a little greater measure of family responsibility. 
They have on the average of 2.9 children, more than cut in 
half, the birth rate. So to those experts who believe that to 
get on top of the world hunger problem we need to do more on 
the population explosion, as it has been called, the best way 
you can do that is by educating girls.
    This school lunch idea that Senator Dole and I are 
proposing will do precisely that. It will bring the girls into 
school. The mothers and fathers will see to it, whether they 
have boys or girls or both, that they get to school if they can 
get a nutritious meal. Senator Harkin referred to this problem 
that he saw in Bangladesh. It is similar all across Asia, 
Africa, Latin America, large parts of Eastern Europe, including 
Russia.
    So to whatever extent we bring youngsters into school, 
especially the girls, we will have the best results in terms of 
restraining population growth.
    The Chairman. Well, we thank you both very, very much.
    Senator Harkin. Mr. Chairman?
    The Chairman. Senator Harkin?
    Senator Harkin. A point of personal privilege before they 
leave.
    The Chairman. Of course.
    Senator Harkin. And this has not to do with hunger or 
nutrition, but this week marked the tenth anniversary of the 
Americans with Disabilities Act, and we have had some great 
celebrations over the last couple of days. Thousands of people 
with disabilities and their families have been here in 
Washington. And I just again wanted to say thank you to Senator 
Dole for his strong leadership 10-years-ago in helping us get 
through the Americans with Disabilities Act when he was 
Majority Leader in the Senate and, again, Bob, for your strong 
support over the last 10-years in making sure it wasn't chipped 
away at. You were missed at a lot of the celebrations. I know 
you were in another State celebrating. That is what I heard.
    Senator Dole. I was in Columbus, Ohio. They had a big 
celebration yesterday noon. It was really fantastic.
    Senator Harkin. I heard you were there, but I just want you 
to know that at all the celebrations here, with all these 
thousands of people with disabilities, you were mentioned often 
and praised highly, and well deserved. Thank you.
    [Applause.]
    Ambassador McGovern. Mr. Chairman, could I just add 10-
seconds here?
    The Chairman. Yes, of course.
    Ambassador McGovern. A key person in all of this will be 
the Secretary of Agriculture. He is the man that is going to 
have to decide what products are purchased and in what 
quantities. I think we are very fortunate to have Dan Glickman 
as Secretary of Agriculture. He has done a wonderful job, and I 
think he will with this program.
    The Chairman. We concur with that. Thank you very much for 
that tribute.
    The Chair would like to call now our colleagues Senator 
Durbin and Senator McGovern to the table.
    Gentlemen, I would just mention, because others have come 
in since I started the hearing, that we would ask you to try to 
summarize your comments in 5-minutes, and your full statements 
will be made a part of the record, and we will ask Senators to 
try to confine their questions to 5-minutes because of the busy 
program on the Senate floor that will be involved in all of 
this.
    Senator Durbin.

   STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR FROM 
                            ILLINOIS

    Senator Durbin. Mr. Chairman, thank you for this hearing, 
and, Senator Harkin and Senator Johnson, thank you for joining 
in on this important day. To think that we would have two 
giants of the Senate and of our Nation, Senator Bob Dole and 
Ambassador George McGovern, come here and make this suggestion 
today is an indication, I think, of the value of this concept. 
And I don't need to sell it to any member of this committee 
because each of you in your own way has contributed in your 
public service toward this very value that we are exalting 
today in the suggestion of this international school lunch 
program.
    I can tell you that when we had a luncheon just a few weeks 
ago in the Senate dining room with Senators Dole and McGovern, 
representatives from Senator Lugar and Senator Harkin, 
Congressman McGovern, Congressman Tony Hall, and Secretary 
Glickman, there wasn't a person who walked in that dining room 
that didn't stop cold in their tracks and say, What are those 
folks doing together? And the fact is that we have come 
together on a bipartisan basis with an exciting concept to 
address some real-world problems. Three-hundred-million-
children in the world who get up in the morning hungry and go 
to bed at night hungry, that is more than the population of the 
United States; 130 million of these children do not go to 
school. If we can help feed these children and bring them to 
school, as Ambassador McGovern has said, it will have a 
dramatic impact not only on their lives but on the world.
    Last January, I went to Sub-Saharan Africa and visited 
South Africa and Kenya and Uganda. I went there to study food 
issues and issues of microcredit. I was overwhelmed by the AIDS 
epidemic. That is the overarching concern on that continent and 
will be soon throughout the Third World. This program addresses 
real-world concerns.
    I met a lady in Uganda named Mary Nalongo Nassozzi. This is 
a 63-year-old-widow. All of her children have died from AIDS. 
She has created an orphanage in her home for her 16 
grandchildren who are now living with her. Her backyard is 
covered with stones and crosses to symbolize the children she 
has lost to this epidemic.
    We can't build enough orphanages to take care of 10-
million-AIDS-orphans in Sub-Saharan Africa. But we can help 
people like Mary Nalongo who want to extend their family and 
bring in their children, their grandchildren, their nephews and 
their nieces. This program will help them because it gives, at 
10-cents a meal, a child enough nutrition to go through the 
better part of a day. That is a terrific investment, not only 
in the future of those families but in the future of this 
planet. And for my friends from Illinois or Indiana or Iowa or 
South Dakota, and I am sure Vermont as well, we can say to them 
that we are going to take the surplus of our bounty, a surplus 
which is depressing farm prices, and invest it in people. I 
think that will make a big difference in the world that we live 
in.
    I just want to close--and I want to thank you for your help 
in this--by saying that today I will be introducing legislation 
which I invite you all to join me on, which is an effort to 
build on what the President suggested at the G-8 conference. I 
talked to John Podesta before that conference, and I have been 
in communication with the White House, and I am glad that they 
have endorsed the basic concept that we are discussing. But 
this program has to be available in the years when we may not 
have surpluses to continue it. And the idea that I have 
suggested is that money that is now in the EEP account that is 
not being used could be used partially for this type of feeding 
program so that we will have a source that we can turn to 
regularly.
    I hope you will consider this legislation and join me in 
reallocating unspent EEP money to school feeding and other food 
aid problems. When I look at all of the things that we disagree 
on, on Capitol Hill, all of the bipartisan wrangling that goes 
on, it is such a breath of fresh air to walk into this room and 
see such a strong bipartisan sentiment in support of what is a 
fundamentally sound concept that will make this a better world.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Durbin can be found in 
the appendix on page 58.]
    The Chairman. Well, thank you very much, Senator Durbin, 
for your leadership in this.
    Congressman McGovern.

  STATEMENT OF HON. JAMES P. MCGOVERN, A REPRESENTATIVE FROM 
                         MASSACHUSETTS

    Congressman McGovern. Well, thank you, Mr. Chairman. I want 
to thank you and the members of this committee for giving me an 
opportunity to testify before you this morning. Your years of 
service and leadership both on agriculture issues and on 
foreign aid and humanitarian issues are admired not only by 
your colleagues in the U.S. Senate but by many of us in the 
United States House of Representatives. By holding the first 
hearing to explore the importance of a universal school lunch 
and WIC-type program, this committee once again demonstrates 
that leadership, and I am very, very grateful.
    In the House, I am happy to report a bipartisan movement is 
growing in support of this initiative. Congresswoman Jo Ann 
Emerson and Marcy Kaptur and Congressman Tony Hall and I 
recently sent a bipartisan letter to President Clinton, signed 
by 70 Members of the Congress, urging him to take leadership 
within the international community on this proposal. And I am 
attaching a copy of that letter testimony and ask that it be 
part of the record of this hearing.
    The Chairman. It will be part of the record.
    Congressman McGovern. I also request that a letter from the 
National Farmers Union outlining their support for this 
initiative be entered into the record and a letter I just 
received from Jim O'Shaughnessy, the vice president and general 
counsel of Ocean Spray, be made part of the record. We grow a 
lot of cranberries in Massachusetts, so this is very, very 
important to Massachusetts.
    I also want to join in commending the leadership of 
Senators McGovern, Dole, and Durbin as well as Secretary of 
Agriculture Glickman on this issue. It is really extraordinary 
that this coalition has come together. And I probably should 
say, since a number of people have asked me about whether I am 
related to George McGovern, I wish I were. I worked for him as 
an intern in the Senate and we are ideological soul mates, but 
we are not related. He is one of my dearest friends.
    A lady came up to me when I walked in here and said that 
she has been a long-time and consistent supporter of my 
father's, and I said to her----
    [Laughter.]
    Congressman McGovern. I said I appreciate that, my father 
owns a liquor store in Worcester, Massachusetts. We appreciate 
all your business.
    [Laughter.]
    Help put me through college.
    Mr. Chairman, I don't want to repeat what has already been 
expressed so eloquently and passionately by Ambassador 
McGovern, Dole, and Durbin. So I will not reiterate the many 
facts and statistics cited in support of this global school 
feeding proposal. Instead, I would like to just take a couple 
of minutes to state why I support this proposal and what I feel 
we in Congress need to do to ensure its success.
    Mr. Chairman, I believe the world moves on simple ideas. 
The simple idea we are discussing this morning is also a big 
idea. It is even more compelling in its potential to move us 
closer to achieving many of our most important foreign policy 
goals: reducing hunger, increasing and enhancing education in 
developing countries, increasing education for girls, reducing 
child labor, increasing opportunities for orphans of war or 
disease, such as HIV/AIDS orphans, decreasing population, and 
decreasing pressure on food resources and on the environment.
    Clearly, our own prosperity, now and in the future, depends 
in large part upon the stability and economic development of 
Asia, Africa, Latin America, and Eastern Europe. This proposal 
calls for substantial investment. But in the words of the 
National Farmers Union, and I quote, ``The benefits to those 
less fortunate than ourselves will be profound, while our own 
investment will ultimately be returned many times over. The 
international nutrition assistance program is morally, 
politically and economically correct for this Nation and all 
others who seek to improve mankind.''
    I believe, Mr. Chairman, this simple idea might prove to be 
the catalyst to a modern-day Marshall Plan for economic 
development in the developing countries, an international 
effort in which our farmers, our nonprofit development 
organizations, and our foreign assistance play a significant 
role.
    To be successful, such an effort must be multilateral and 
ensure that these programs become self-sustaining. However, 
this initiative, like so many others before it, could also 
fail, and it could fail because we in Congress fail to provide 
sufficient funding. It could fail because we fail to make a 
commitment of at least 10-years to secure its success. It could 
fail because we fail to integrate this proposal into other 
domestic and foreign policy priorities. And it could fail if we 
decide to rob Peter to pay Paul, taking money from existing 
foreign aid programs and undermining our overall development 
strategy.
    We need to understand from the beginning that we must fully 
fund this program, both its food and its education components. 
And we need to understand from the beginning that we are in 
this for the long haul. We need to understand from the 
beginning that support for this program requires, and, in fact, 
it demands increasing U.S. aid for programs that strengthen 
education, that promote local agriculture, and provide debt 
relief.
    Mr. Chairman, I know the politics of this project are not 
simple, but just as Senators McGovern and Dole built a 
bipartisan consensus in the past, I believe we can do the same 
now. We don't need to reinvent the wheel to implement this 
program. So much is already in place to move ahead on this 
initiative. We already have a history of funding food aid and 
food education programs. We already have successful 
partnerships with U.S. NGOs to carry out these programs abroad 
and at the community level. We also have established relations 
with international hunger and education agencies, including the 
Food Aid Convention, the World Food Program, UNICEF, and the 
United Nations Food and Agriculture Organization.
    We already have a successful history of collaborating with 
our farmers to provide food aid, and we already have proven 
mechanisms to prevent destabilizing domestic or international 
markets.
    And, quite frankly, Mr. Chairman, I would rather pay our 
farmers to produce than watch them destroy their crops or pay 
them not to produce at all.
    I would like to add, in conclusion, that as we commit 
ourselves to reducing hunger and expanding education for 
children throughout the developing world, we must also commit 
ourselves to eliminating hunger here at home. If we fully fund 
existing domestic hunger programs, if we pass legislation such 
as the Hunger Relief Act, then we can make sure that no adult 
and no child in America goes hungry.
    Mr. Chairman, if we fail to take action on these 
initiatives now during a time of unprecedented prosperity, then 
when will we? I believe we can and we must eliminate hunger 
here at home and, at a minimum, reducing hunger among children 
around the world. And I believe we can and we must expand our 
efforts to bring the children of the world into the classroom. 
And we need to make that commitment now, and I hope that you 
and members of your committee will lead the way.
    Senator Durbin has legislation, and we will be happy to 
work with this committee to draft legislation that could serve 
as the underpinning for this program now and in the future, and 
I thank you for the opportunity to be here.
    [The prepared statement of Congressman McGovern can be 
found in the appendix on page 63.]
    The Chairman. Well, we thank you very much for your 
testimony. Let me just say apropos of the comment that Senator 
Dole and Ambassador McGovern were making about the late Hubert 
Humphrey. This committee does lots of things. Sometimes we are 
accused of dealing in foreign policy, energy policy, all sorts 
of policy, and so we don't lack ambition. But our thought here 
today is to try--and our next witness is the Secretary; Ms. 
Bertini will probably draw a finer point on this--specifically 
what kind of an outline or framework, even given all the NGOs, 
the other people that are doing things like this around the 
world, how we frame this in a way that our colleagues can 
understand it and our constituents can understand it. And both 
of you will be very important in that quest because we will 
have to finally explain to the Budget Committee, and one reason 
why we are having the hearing now, even though we are in the 
waning stages, perhaps, of this Congress, is that the Budget 
Committee will be meeting pretty early in the next one, you 
know, maybe long before all of us gear up with our new 
committee assignments, whether it is authorization or 
appropriations. So we will need to have some idea of what the 
ambitions are there.
    This year, for example, this committee asked Senator 
Domenici to try to set aside money which we thought would be 
required for farmers' income in this country as opposed to 
having an emergency at the end of the trail and really to plug 
that money in. One of the problems with the Hunger Relief Act 
is that money was not plugged in. We are sort of dealing 
outside the box there, and we want to be inside the box if we 
are serious about this proposal, as we are.
    So I am trying to get anecdotal information from people 
like our colleague Senator Frist, who has been in Sudan, parts 
that have not been seen by any other public servant, as well as 
other places in Africa. All of you have traveled extensively 
there and know the infrastructure problems in a single country 
of having anything that approaches the model that has been 
suggested in terms of our school lunches and the audit trail of 
how the food got there and who got it and who politically 
appropriated it for what purpose.
    So all of this is a part of the hearing process, but a part 
of our learning process on this committee and with our 
colleagues in the House and Senate.
    Senator Durbin. Mr. Chairman, may I respond to that very 
quickly?
    The Chairman. Yes, of course.
    Senator Durbin. I would just say I totally concur, as I am 
sure Congressman McGovern does. I think the American people are 
caring and compassionate, but they don't want to think that 
they are shoveling money down a rat hole, that it is going into 
some sort of an expenditure that isn't accountable, that it 
doesn't really help people around the world. And I think that 
is part of our responsibility, too, not only to have the right 
humanitarian concern, not only for our farmers but for people 
overseas, but to say to the taxpayers of this country this is 
going to be done in a way that you will be proud of it.
    The Chairman. Yes, and that they can follow and applaud.
    Senator Johnson?
    Senator Johnson. I think given the time constraints that we 
have--I appreciate the insights that Senator Durbin and 
Congressman McGovern have afforded us here this morning on what 
I think ought to be a very high priority for our Nation. I know 
Secretary Glickman is here, and I know that we have an 
obligation on the floor, and so I will withhold questions that 
I otherwise would ask.
    The Chairman. Thank you very much.
    Senator Leahy?
    Senator Leahy. I have nothing further to add. Thank you, 
Mr. Chairman.
    The Chairman. Thank you very much for coming. We appreciate 
it.
    The Chair would like to recognize now the Honorable Dan 
Glickman, Secretary of the Department of Agriculture, and the 
Honorable Catherine Bertini, executive director of the World 
Food Program.
    Secretary Glickman, it is always a privilege for this 
committee to have you before us. We look forward to these 
meetings, and especially on this subject today on which you 
have already given leadership in your career as a Member of the 
House of Representatives and as Secretary of Agriculture.
    Ms. Bertini, we are delighted that you are here again. You 
have added grace and wisdom to our hearings on many occasions, 
and we look forward to this one.
    Secretary Glickman, would you proceed?

 STATEMENT OF HON. DAN GLICKMAN, SECRETARY, U.S. DEPARTMENT OF 
                  AGRICULTURE, WASHINGTON, DC.

    Secretary Glickman. Thank you, Mr. Chairman, Senator 
Johnson, Senator Leahy. It is an honor to be here. I watched 
with a certain degree of nostalgia the witnesses, Ambassador 
McGovern and Senator Dole, both of whom we have all known for 
so long. I recall my old days in Kansas when periodically I 
used to spar with Senator Dole, but at the same time recognized 
it was all political, never personal. And what great leaders 
both of them are and how an idea germinates from those two 
people can take hold and maybe change the world. So I thought 
that it was a particularly poignant moment.
    I want to thank Cathy Bertini, who has done an outstanding 
job at the World Food Program. She, of course, at one point in 
her life worked at the United States Department of Agriculture 
in a senior position, so she has got a great perspective.
    I also want to recognize the team who are here at USDA: Gus 
Schumacher, Richard Fritz, Mary Chambliss, and others. They are 
the ones who will run these programs, and they are, at least 
from the Government's perspective, working with the PVO 
community and the World Food Program, and so their input is 
going to be very critical in making sure that these programs 
are run very well.
    Let me just say a couple things. The FAO has just come out 
with a study which indicates that world hunger is continuing 
despite increased food supplies. Even in 15-years, there could 
still be about 600-million-people suffering from chronic 
undernourishment, the FAO said, and that is in a recent FAO 
study. So, you know, the problems remain, in certain parts of 
the world are unabated.
    Last year, the United States provided 10-million-metric-
tons of food aid, a record high. Just last week, I announced a 
350,000-metric-ton donation to Africa worth about $145 million. 
The total donations for Africa this year are about 1-million-
metric-tons of food. So, you know, we are trying to do what we 
can to get food to that part of the world.
    Tomorrow night I leave for an 8-day trip for Africa, my 
first trip ever to Africa. I have been to South Africa but 
never into the areas dealing with hunger. I am going to go to 
Nigeria, to Kenya, and South Africa with a USDA team largely to 
focus on food aid, food assistance, together with other 
economic and trade relationships with Africa, between Africa 
and the United States. I think it is an extremely important 
time to be there, to be on the ground looking at these issues.
    I am not going to repeat all the objectives which you have 
heard about this program other than to state that they are 
overall attempting to improve democratic participation through 
an enhanced and improved economy and everything that that 
relates to in the parts of the world that have been suffering.
    I would make a couple of comments. What is USDA's role in 
all of this? We will have several roles in managing this 
initiative.
    First, the funding will come from the Commodity Credit 
Corporation under the oversight of this committee.
    Second, FAS, the Foreign Agriculture Service, and USDA 
staff will administer, including monitoring and evaluating the 
program, building on their extensive experience in food 
assistance. And that is where we are very lucky to have the 
team of Fritz and Chambliss and others who have great, 
extensive, long-term experience in food assistance.
    Third of all, the Farm Service Agency, which, of course, 
manages our farm programs, will purchase the needed commodities 
to assure their delivery to the recipient countries.
    And, fourth, we will pool our resources at both USDA and 
around the Government to support this initiative. For example, 
the Food and Nutrition Service, that is the part of USDA that 
manages the National School Lunch Program. They also manage the 
Women, Infant and Children Program, all the feeding programs. 
Their expertise is very great in terms of how you establish 
these kinds of programs, and, again, working with the Agency 
for International Development, who are already on the ground 
operating some sorts of programs like these. Their expertise 
will be critical as well, and I am sure there are other 
Government agencies involved.
    You will have significant roles in both the PVO community 
and the World Food Program. Cathy will talk about that, but we 
anticipate the World Food Program will expand on its programs 
to work with host governments and private voluntary 
organizations to support the countries' efforts to improve 
nutrition in schools.
    The World Food Program will receive agricultural 
commodities from the United States and feed them to needy 
school children. They will also serve as a central point 
between the U.S. and other donors.
    The PVO community, which is critical in making these 
programs work, we will have an extensive relationship. USDA 
will accept proposals from the private voluntary community to 
participate. The PVOs may choose to work directly with the USDA 
on a country program or as partners with USDA or as partners 
with the World Food Program as well. This thing has a great 
degree of flexibility, but recognizing that it is people on the 
ground in these countries who will ultimately decide how it is 
done and whether it will work or not.
    This initiative is a pilot program, a cooperative effort 
between the World Food Program and PVO communities. We estimate 
$300 million is the beginning for the commodities and for the 
transporting of those commodities.
    It will be coordinated through the existing Food Assistance 
Policy Council, which is chaired by USDA. We will use the 
authority of the Commodity Credit Corporation Charter Act to 
purchase surplus commodities and the authority of 416(b) which 
provides for overseas donations.
    The commodities most suitable for the initiative? Well, 
this could change in the future, but clearly, soybeans, corn, 
wheat, rice, nonfat dry milk would be among the major 
commodities. But as you--it was talked about before. I was also 
at the American Food School Service convention and met with 
some people from overseas. They are interested in a lot of 
things beyond just the commodities. They are interested in the 
techniques of cooking, of heating, of chilling, of 
transporting, and of actually doing the logistics of putting 
food packages together, which we could also help them as well.
    Countries will be chosen based on their need, their 
contribution of resources, their commitment to expand access to 
basic education, their current infrastructure and ability to 
deliver food to schools, their commitment to assuming 
responsibility for operating the program within a reasonable 
time frame, and their endeavor towards democratic 
transformation as well. I mean, there are a lot of pieces that 
go into this. It is not just a food assistance program, as you 
can see. It is a development assistance program with a heavy 
education component to it.
    We will be careful not to displace commercial sales. That 
is something that Congress has, you know, warned us on before. 
There will be, however, a monetization aspect of this. Some of 
the commodities, as we do in most of our food assistance, may 
be monetized, may be sold to fund other food on the ground and 
administrative costs. This is something that we will have to 
carefully develop as part of the proposals. We do this in 
various parts of the world, and it has worked out very 
successfully.
    The proceeds from the sales could also be used to manage 
the programs, could be used to buy local foodstuffs that may be 
more appropriate for local tastes, or for the school meals 
program or buying equipment, paying storage, this kind of 
thing. It is very interesting. As a result of this discussion, 
I had a conversation with the head of the Export-Import Bank 
who told me they have the ability to finance longer-term 
purchases of services or equipment, even at low levels--you 
don't have to buy multi-billion-dollar things--that might be of 
assistance to foreign governments as they enter into these 
programs: storage, heating, chilling, all those kinds of 
things.
    So this is a program that may give us kind of a catalyst to 
try to develop more of a feeding infrastructure in some of 
these countries as well.
    Let me just close by again thanking the PVO community. I 
met with them yesterday, all the organizations that you can 
imagine. Working with the World Food Programs, they are the 
ones to make sure that these programs work and that we try to 
deal with the incredible chronic problems of hunger in the 
developing nations.
    Finally, let me just say something else, too, because I was 
watching Dole and McGovern here and thinking to myself--and I 
think you are in this same role, Mr. Chairman, as well. The 
U.S. has been the leader since the Second World War in 
virtually every humanitarian assistance project in the world. 
We are at the forefront. Others follow. Some argue we are not 
doing as much now as we should, and I happen to think that we 
could be doing more. But we are basically the intellectual and 
moral, spiritual leader of trying to help the rest of the world 
bring itself up to greater levels of economic and basic 
subsistence and beyond that.
    This project personalizes a lot of our food assistance a 
little more. It is not intended to replace the general level of 
food assistance we are providing. But what it does is it gives 
a little tie to people's lives, that the food assistance will 
be tied to something else that will affect their lives 
profoundly, and that is, the ability to become educated, and 
tying those two things together can have a profound effect on 
the future of their lives as well as democracy in their 
countries.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Glickman can be found 
in the appendix on page 74.]
    The Chairman. Well, thank you very much, Mr. Secretary.
    Ms. Bertini.

STATEMENT OF CATHERINE BERTINI, EXECUTIVE DIRECTOR, WORLD FOOD 
                      PROGRAM, ROME ITALY

    Ms. Bertini. Thank you very much, Mr. Chairman. It is very 
exciting to be here today on a day that I think we will look 
back to know as the kick-off for a program that can not only 
make a difference in millions of lives but save millions of 
lives and help millions of people in developing countries, help 
their communities and their countries become strong 
economically, and that certainly will be a great tribute to 
this program, to the grand idea of someone who thinks very big, 
Ambassador McGovern, and to the strong bipartisan support from 
people who know about nutrition issues and how important child 
nutrition is, that being you, Mr. Chairman, and the members of 
the Committee who have been so supportive of these issues in 
the past, and the strong jump-start from this administration 
who have come forward to say we are ready, here we are with a 
very significant initial contribution to the program. So, 
Secretary Glickman, thank you for that, and I think all people 
involved have helped to make this strong, quick, and 
bipartisan. And that certainly, as has been pointed out, is the 
tradition of this committee, and fortunately for the nutrition 
programs, both domestic and international, a tradition for the 
support of hungry children in the United States and 
malnourished children throughout the world.
    The concept, as Senator Dole said, of school feeding for 
all is a very exciting concept, and it is one where we can make 
a very, very serious difference. And, you know, when we think 
about the history and some of the success in the United States, 
I think back to the school breakfast program during my time at 
USDA and the research that was done at the time which showed 
that children who had access to breakfast at school showed less 
absenteeism, less tardiness. They paid more attention in class. 
They got higher test scores. And this was as a result primarily 
of the fact that they had breakfast at school.
    If we take that basic concept and expand it throughout the 
world, we are talking about the idea that children who, when 
they come to school, have some kind of food, that this will 
make a huge difference in the areas I just described, but also 
even in getting children to school. And we have seen this, as 
Senator McGovern said before, we have seen this over and over 
again in our programs. When we put in a school feeding program 
where there hasn't been one before, we almost routinely see at 
least 100-percent increase in the number of children who are 
going to school. And in places where the girls are much less 
likely to go to school, it is usually an even higher increase 
in the number of girls who go to school. And this is very 
significant for the reasons that have been pointed out before.
    I must say also that Secretary-General Kofi Annan has 
recently announced an initiative for girls education worldwide, 
and he did this at the Education for All Conference in Dakar, 
where he said we must all band together to do more to get more 
girls in school, because it probably is the single most 
important development input that we could make to affect the 
rest of the country over the long term. So that aspect of this 
program is absolutely significant.
    We have seen so many success stories, not just in getting 
children to school but in developing an infrastructure in a 
country where one has not existed before. And I would like to 
cite in that case the small country of Bhutan, where recently I 
met with an official from that government who was about 45-
years-old, and he told me that he had gone to school and he was 
now able to participate in the workings of his country, but his 
sister, only 5-years older than he, had not. And the reason, he 
said, was ``because the World Food Program came in in between 
my sister's school years and my school years and provided 
school feeding in the schools. And since we live in a 
mountainous area where it is difficult to get to the school, 
parents weren't going to send their children unless they were 
going to be able to eat. So I have an education, but the people 
just 5-years older than me have not.''
    That is the kind of difference I think school feeding can 
make, and over and over again those are the kinds of stories 
that we hear.
    When we talk about this vision that Ambassador McGovern 
created, I think we talk about three aspects of it. First is 
the advocacy, that it is important for every child to have a 
meal at school, that is something that we all must be 
advocating worldwide. It is something that is not necessarily 
needing to be funded because it could be countries that could 
well afford to do it but may not appreciate all the reasons why 
this is important. So, first, to me, we are talking about 
advocacy.
    Second, we are talking about providing technical assistance 
because, again, some countries may have the resources or some 
of the resources, but they don't have the right technical 
skills. And there is a great wealth of technical resources, as 
has been pointed out already, here in the United States and 
also, I should say, in other countries where school feeding are 
strong programs.
    But to give an example, the people at the Food and 
Nutrition Service, they have been running school lunch and 
breakfast programs for years and years, yes, in the United 
States where everything is not necessarily replicable to a 
developing country, but their expertise could be extremely 
useful to the World Food Program, to the NGOs, and ultimately 
to other countries as well.
    The expertise of an organization like the ASFSA, who has 
been mentioned several places here before, we have talked to 
members and the leadership of ASFSA about this program and the 
prospect of using some of their people who have been experts in 
setting up school lunch programs in their own communities to be 
able to share that expertise elsewhere.
    And I can point to a seminar that the World Food Program 
held last December in Colombia where we invited all the 
Ministers of Education of South American countries, and almost 
all countries were represented. Most countries do have school 
feeding in South America. And we also invited experts, Spanish-
speaking experts, from ASFSA, and what happened was a new 
understanding of some of the kind of things that networking and 
expertise from other countries such as the U.S. could bring. 
And as a result, the countries who were at the meeting in South 
America are now aggressively organizing the ways in which they 
can network among themselves and with the expertise available 
from the U.S. These are some of the kinds of things I think 
could be extremely useful as we continue down this road.
    Then, finally, of course, the major piece of this whole 
idea is the provision of food assistance and technical 
expertise to help countries to be able to put in school feeding 
projects. And I think that when we proceed in this way, we have 
to be careful in order to be sure that countries meet, for 
instance, the objectives that Secretary Glickman outlined, but 
we also have to follow up to ensure that the countries will 
make a commitment to running these programs over the long term 
themselves, because if they do not, it is not necessarily 
effective for us to go in with an open-ended program but, 
rather, we need to be organizing with countries a time-limited 
program and find an agreement with the countries up front that 
they will take over managing this program after a certain 
amount of years, and with that understanding it could proceed.
    We have found that when we do talk about these countries, 
we, again, talk about several different kinds of countries: 
OECD countries who we hope will be contributors, but who also 
we should talk with about their own programs and whether or not 
there is any need to look at them; relatively well off 
developing countries who would receive just only perhaps a 
small amount of technical assistance; middle-income countries 
where we would be talking about the prospect of food 
commodities, technical assistance, perhaps equipment; and then 
lower-income countries where, of course, the needs are far 
greater for all aspects of the school feeding program.
    We do have to demand accountability. We have to build that 
into the system from the beginning where we--we, the World Food 
Program, the PVOs, whomever--can be accountable to the donor, 
the U.S. Government, for how the food is distributed and who 
receives it and the process in which it is managed.
    If I can say also, when we look at the World Food Program, 
it has been mentioned many times today, I know you know WFP 
well, but in my formal testimony that you will have in the 
record, we talk about the number of people WFP served, for 
instance, last year 89-million-people. Over 11 million were 
children in school. In over 50 countries we were serving 
children in school. We, of course, have a large logistics base 
so that base has been very important because we have been able 
to move food and other commodities for our sister UN agencies 
as well as NGOs and, of course, the food provided through our 
own program.
    We work with about 1,200 nongovernmental organizations 
throughout the world, and we have very close partnerships with 
major American PVOs, many of whom we have a memorandum of 
understanding outlining how the two of us--or each of us can 
work together in order to try to support the work done in 
developing countries by our teams.
    We have the advantage, as was mentioned before by the 
Secretary, of working with other donors through the board of 
WFP. Our board is made up of 36 member governments, including 
the United States, and they approve the development and the 
refugee projects in which we are involved.
    We have had great flexibility in the tonnages that have 
come forward to WFP over the years, and we have been able to 
shift our program accordingly when we have a lot of food 1-year 
that we didn't have the year before, or, conversely, 
unfortunately, some years when we don't have enough, and we 
have been able to make those changes accordingly.
    Accountability is a very important issue for us, this issue 
that you mentioned, Mr. Chairman, and we put a high priority on 
it. In fact, I established the office of an inspector general 
about 5-years ago who is very aggressive in terms of ensuring 
that our food and other resources go to where it is intended to 
go.
    We would hope in this initiative to work with other 
partners in addition to the PVO community, in particular UNESCO 
from whom we get educational advice and expertise; UNICEF, who 
is very involved with programs for children throughout the 
world; and the United Nations University nutrition experts who 
have already offered to provide help, as well as technical 
expertise, as I mentioned, from other entities as well.
    I would be glad to go into more detail on these issues, but 
I want to close by saying, again, how exciting this prospect 
is, that we are actually at the beginning of launching a 
program where every child in the world could have food at 
school. It will make a major impact on the number of children 
in school and on their well-being and economic development of 
all of the countries of the world.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bertini can be found in the 
appendix on page 81.]
    The Chairman. Well, I thank both of you for very detailed 
statements, and your presentations will be made a full part of 
the record, the text as well as your oral testimony.
    Let me just start, Secretary Glickman, by mentioning that 
on pages 4 and 5 of your testimony, you mention that in the 
United States the program will be coordinated through the 
existing interagency Food Assistance Policy Council, which is 
chaired by USDA but includes representatives from USAID, the 
Department of State, the Office of Management and Budget--OMB. 
This group has a very important responsibility because in a 
way, just to get to the nitty-gritty of the problem, you are 
going to be discussing which countries are the most likely 
candidates. So right off the bat, some decisions that are 
rather fateful, at least, are going to be made by this group, 
and the criteria that you have listed on page 5 are their need 
but also their contribution of resources, their commitment to 
expanding access to basic education.
    So at this point now we move sort of beyond the nutrition 
situation to a very important policy commitment. Of course, 
Senator McGovern earlier on and both of you have talked about 
the girls coming into these schools and the basic changes 
really in the life of those countries could come from that. But 
that is a very important criteria which perhaps will be acceded 
to by other countries happily, maybe some resistance, I don't 
know.
    But, second, you move beyond that to the program has to 
have a reasonable time frame, which is true, because 
essentially these programs in terms of our policies, our 
appropriations and decisionmaking, are sort of year by year. We 
need to know, somebody who has some hope of making this work in 
a year or two or three, as the case may be, their current 
infrastructure, including ability to deliver food to schools, 
which in some cases may be very sparse, these resources. And 
yet at the same time, on the one hand, of course, we are trying 
to help them stimulate the boosting of those resources, maybe 
through some of these PVOs or other organizations even 
providing some of this infrastructure, as well as the technical 
assistance that you mentioned even with the Japanese, the 
thought of how do you package the food, how do you cook the 
food. Technically, how do you provide, as we heard from other 
hearings, the food safety aspect so that we do not have a very 
severe problem in which we are perpetrators or create problems 
in another country?
    Then you added also beyond your text, Secretary Glickman, 
the idea of democracy or sort of their general outlook toward 
how people are treated, human rights, which is another criteria 
or set of criteria beyond that. So I see some heavy lifting by 
this policy group right at the outset, and I am wondering just 
from your first cut at this problem, let's say that we try to 
formulate a resolution, a piece of legislation or something 
that gives you some support. You can do a lot of this, perhaps, 
administratively and so that would be helpful, of course. But 
to the extent that you can't, how do you suspect you are going 
to go about determining, for example, in year one or even year 
one and two, how many countries, how many make the cut with all 
of these criteria. And then as we take a look at that 
situation, we come back into this overall theme that Senators 
McGovern and Dole brought forward, namely, 300-million-children 
in the world. But as Ms. Bertini has pointed out in her 
testimony, with 50 countries being served now by the World Food 
Program, 11-million-children, as I recall her testimony, that 
is a good number and a lot of countries already. So we have 
some experience with this, but obviously 11 is not 300 and I am 
sort of curious as we begin to frame this issue what increments 
we move in or do you envision--someone said a 10-year plan, but 
if so, what does it look like in, say, years one, two, three.
    Then, finally, just to add to your burden of answering this 
question, Ms. Bertini has said there are 50 countries involved 
in some sort of feeding of 11-million-children, 89-million-
people all together, I guess. But who does this international 
diplomacy of inviting others to help or negotiating really the 
allocation of who does what?
    Now, obviously, in a program of this sort, we would have 
confidence in the Congress; you would have confidence in USDA, 
if USDA were doing it. You would have some accountability all 
the way through the process, and we could ask you to come to 
the Committee, ask Ms. Bertini to come, and say how did it work 
out, and you can report this.
    But now you have 36 countries, 50 countries, whatever the 
groupings that you have mentioned, Ms. Bertini, in this. You 
are over in Rome. Obviously, the American taxpayer would say 
what are the other countries doing. So, on the one hand, why, 
we want to make sure everybody is doing their fair share, but 
then when you come to accountability, that is, who actually is 
doing this.
    Now, in other fora, we get into problems like Kosovo, for 
example, presently where it is not clear, given four zones, or 
maybe even a fifth involving the Russians, and the UN, but the 
UN, poverty stricken for resources most of the time. Who does 
what in this proposition, and particularly if it is to be a 
sustained situation that goes through several Congresses, 
several administrations, with some credibility all the way 
through?
    This is a heavy load for one question, but these are the 
sorts of things that we want to grapple with because this is 
going to change the situation from something that is a 
remarkable idea to something that might happen in some form 
that we would recognize.
    Secretary Glickman. That is a fair amount of challenges you 
have just given me. Let me just make a couple of comments. One 
is that I think we can do much of this administratively, but I 
personally believe that legislation will ultimately be 
necessary to create a model to give this any long-term legs. 
Just simple things, for example, like Cathy mentioned how the 
Food Nutrition Services run school lunch programs and related 
things, but I am not sure they have a lot of legal authority to 
go help people around the world set up their lunch programs.
    And so I can think of many things in which you would need 
to provide some resources, for example, in the transportation 
side that you cannot do right now. There are a variety of 
things that I think would have to be dealt with legislatively 
if you want to make this program a real success.
    Second of all, you know, the President did bring this idea 
forward in the G-8 in Okinawa, and he talked with those folks 
who were there, and there was a general interest in what he 
talked about. He talked with Tony Blair, the Japanese, and 
others, particularly about this effort and how this could not 
be a unilateral United States effort, although we have probably 
more experience than anybody else in the world running this 
kind of a program.
    The third I would say is that some of these issues have 
been raised ever since we started food assistance programs. We, 
of course, have an interagency task force that disposes of 
millions of tons of surplus food every year in the 
international arena, so we have an infrastructure which we 
currently do to do that already. And a lot of the same 
questions you asked are relevant to--for example, all the 
assistance to Russia, which was extremely complicated, 
oversight, accountability, how was the money spent, how are 
proceeds monetized, all those kinds of things are things that 
we have been doing with respect to those other food donation 
issues. Generally speaking, it is a multidisciplinary effort in 
the Government, but, by and large, USDA has taken the 
leadership role in putting these things together, which we 
would expect we would continue to do because most of the 
funding would come out of the Commodity Credit Corporation 
account.
    Richard Fritz runs the Commodity Credit Corporation and has 
great experience in this area. I think it would be worthwhile 
to hear his perspective on this.
    The Chairman. Mr. Fritz?
    Mr. Fritz. Thank you, Senator. Thank you, Mr. Chairman.
    Basically, we can run this program with existing authority; 
however, I think it could run better and smoother if we could 
change some of the parameters of the number of programs that we 
have to work in, including providing some international 
authorities for groups like the Food and Nutrition Service of 
USDA.
    I think the Secretary has laid it out well on how the Food 
Assistance Policy Council works. The official members are those 
that you mentioned, but very often other parts of the U.S. 
Government come and attend those meetings and have their inputs 
from a variety of views.
    This is certainly a work in process. We had one meeting 
with the PVOs yesterday. We will continue those meetings in 
August. We are meeting with the staff of your committee, and we 
will be looking at countries basically on what they can 
provide. Obviously, those that are well-off will have shorter 
graduation time periods than those who are less well-off and 
can provide the infrastructure necessary to deliver a preschool 
and school feeding program.
    So we have a lot of work to do ahead of us, and we will be 
working with you and the community to make sure that this is a 
successful program.
    The Chairman. Well, I appreciate both of your responses. It 
just occurs to me--and it is appropriate that Senator Cochran 
is here because he is the Chairman of the Appropriation 
Committee for Agriculture. At some point, let's say you handle 
it all in-house and you suggested legislation might be useful 
for longevity of this program, but maybe you would say for the 
first year we have got to get this thing off the ground.
    Now, this has to appear somewhere probably in your budget 
submission, whether it is $750 million or a more modest sum. 
And then this raises some questions of competing interest in 
the USDA budget which are not inconsequential. You face these 
all the time. Here is something probably over and beyond 
anything you have requested before from the Department, and 
that comes up pretty soon. I mentioned the Budget Committee 
starting right off the bat in January, and Senator Cochran and 
his group coming right after them as the appropriators.
    So the reason I am raising these questions now is that the 
time frame of this doesn't exactly fit. We have national 
elections going on. We have an interim period. We have Congress 
being sworn in, committees and all the rest of it, and a new 
administration, either Mr. Gore or Mr. Bush, who may or may not 
share all of what we have been thinking about today, but could 
maybe be brought up to speed by some of us.
    So I am sort of requesting some idea of the money that is 
going to be required, anticipating that even though there is 
enthusiasm in this room for what we are doing here, we have 
hearings every day of groups that come here. We had sugar 
people yesterday, for example.
    Secretary Glickman. I have heard of that issue.
    The Chairman. A very different sort of meeting.
    [Laughter.]
    And it was just as large a crowd. But we will have others, 
all of whom have requirements.
    Now, what I am also suggesting probably is that the 
construct that both of you have committed of some legislation 
that makes this a permanent entity or some rules of the road, 
if we are to have some hope of this being a multi-year thing is 
probably required. Without getting into a lot of stories that 
are totally not related, but in a way, the School Lunch Program 
comes to mind here in this country.
    You know, in 1995 and 1996, there was a movement that was 
fairly substantial to change the character of the American 
school lunch program. One was on the books, and it said it was 
universal, it applies to all 50 States. A child in the United 
States is a child in the United States, not in Indiana or Ohio 
or what have you. There were other Members of Congress with 
very strong motivation and idealism who said in a Federal 
system Ohio ought to run its own program and have criteria, or 
Illinois, or what have you.
    Now, I took the position--and ultimately that was the one 
that prevailed because I would not sign the conference report 
and, therefore, the change couldn't be made--that we would have 
a universal program, that a child was defenseless, could not 
move from State to State to take advantage of who had a program 
here or didn't somewhere else.
    But if we had not had a framework that was there already of 
a universal program, we might have been in some trouble. 
Administratively, whoever was Secretary of Agriculture then, or 
whoever, might have decided let's try a pilot project or let's 
try something else. And this is what I anticipate with this 
program. If there are not pretty good criteria as to who is 
selected, who runs it, all the way through, that may be amended 
by other Congresses. But at least there is a structure there 
that was not something being handled day by day even by people 
as competent as yourselves at USDA.
    So that is just sort of an editorial comment, but a concern 
that I hope that you share.
    Secretary Glickman. I do. And let me just say this: You 
know, I think that we can start this program administratively 
through the surplus removal authority under the Commodity 
Credit Corporation Charter Act. We would have to get an 
allocation, an apportionment in the Office of Management and 
Budget to do it. But anything longer term will really require, 
if not a legislative solution, some sort of approval process 
from the Congress. And in addition to that, we probably can't 
run this program over the long term very effectively without 
additional infrastructure ourselves.
    For example, we tripled food aid donations last year with 
actually less staff than we had 5-years-ago, 10-years-ago, 15-
years-ago. And if the United States is going to assert its role 
in trying to deal with these humanitarian issues in the world, 
you have got to have the domestic infrastructure to deal with 
it. And, quite frankly, it is real thing right now.
    So if our ideas aren't met with a way to accomplish these 
objectives, it is not going to be very successful. I agree with 
you there.
    The Chairman. And it is a remarkable idea, as everybody has 
commented, because in terms of our own humanitarian interests, 
but likewise our own foreign policy, if the infrastructure is 
done right, if we are thoughtful about the cooking, the 
packaging, how you do a model school lunch program around the 
world, this is an extraordinary American influence that comes 
into the grassroots of all sorts of places.
    Secretary Glickman. If I just might, not so much a point of 
personal privilege, I am not going to do what Senator Harkin 
did, but Mr. Schumacher was in Indonesia, and I would just like 
to have him tell you just briefly what we have done with milk 
product there in the schools and how it affects people's lives. 
And it is the U.S. that is doing it. It is largely done through 
some PVOs, I think.
    Mr. Schumacher. Very briefly, Senator, I was out there a 
few months ago. With 6,000 tons of reconstituted milk powder 
that we donated, they are now feeding 600,000 children every 
day. We are going to be doing 60-million-little-cartons of milk 
that cost 10-cents each, UHT, and it has worked very, very 
well.
    In addition, we are providing rice to school children who, 
because of the crisis, dropped out of school because they have 
to go to work, regarding Senator Harkin's concerns. And the 
rice is provided through the school teachers to bring those 
school children back into school; 900,000 children are 
benefiting from that program. And this is the product of 
American dairy farmers and American rice farmers, and it is 
working very well.
    The World Food Program is very active in the rice. In the 
inner city, we were in garbage dumps that people are picking 
rags, and the local private voluntary organizations from local 
universities were brought in by Cathy's people, blue hats, and 
they are energizing people who are little bit better off to 
help people who are a little bit worse off. It is working very 
well. I think American farmers should be proud of that.
    The Chairman. Well, that is remarkable testimony. It just 
occurs to me that members of this committee, probably even a 
broader group, need to have at least a map of the world or some 
matrix to know really the things we are doing now to sort of 
fill in that background. Listening to all of this, I am sure we 
all understand the poverty of our own knowledge about what 
America is doing.
    Senator Cochran.

STATEMENT OF HON. THAD COCHRAN, A U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. Mr. Chairman, thank you very much. I am 
glad to have a chance to come over and find out what this is 
all about. I looked at the notebook that my staff members had 
prepared in preparation for this hearing, and I was interested 
to see that not only was Ambassador George McGovern going to be 
here this morning and Senator Bob Dole and other colleagues, 
Richard Durbin and others, but Catherine Bertini, whom I have 
respected and known for a good many years in her capacity as 
Director of the World Food Program--I also remember when she 
was in the administration here and had responsibilities for 
food programs--and Secretary Glickman and others.
    I read through some of the statements while trying to catch 
up a little bit because I was late getting here, and I noticed 
that Ellen Levinson has some interesting comments to make on 
this subject, too. We have assembled some impressive experts in 
this area, people who care about not only feeding the hungry 
around the world, but who have had personal experience in doing 
just that. I came over to congratulate them, and to let them 
know that I am interested in this idea. It sounds like 
something we should seriously consider, and I am confident that 
under the leadership of Chairman Dick Lugar we will seriously 
consider this proposal.
    One observation that I have comes from the statement that 
Catherine Bertini submitted, and that is that the World Food 
Program is the right organization to take responsibility of the 
overall management of this program. The challenge is to help 
countries launch and sustain the programs that are national in 
scope and only those governments can do this. That is something 
that I think we need to realize, that we can pass a bill here 
and we are going to have a lot of work to do to follow up and 
make it work, and a lot of that is going to have to do with how 
successful we are at getting other governments involved.
    Individual school feeding projects can help specific 
communities, but they will not be enough to reach the goal of 
providing food to school children around the world. So, we need 
to be cognizant of the caveats that are sprinkled through here, 
too, in some of these statements, and to recognize that what we 
are hearing proposed is a one-year pilot program, as I 
understand it, and $300 million was the President's suggestion. 
That is something that I believe we should keep in mind.
    So I am here to learn more about how we do it and what the 
trade-offs are what the effects would be on other programs. We 
usually take surplus commodities held by the Commodity Credit 
Corporation to make donations. We may or may not have the 
surplus commodities in years to come that we do right now. So 
there are a lot of considerations, but I am glad to be here to 
lend my support to the effort to find a way to achieve some of 
these goals, and I hope we can do that.
    The Chairman. Thank you very much, Senator Cochran. I would 
just mention that the $300 million the President talked about 
at Okinawa was certainly an important idea. The idea that 
Senator McGovern and Senator Dole presented and that has been 
amplified by Secretary Glickman is obviously a much more 
ambitious idea. It is with regard to children all over the 
world and for some period of time. This is why I have been 
interrogating the Secretary about the selection of who and 
which countries, what order.
    Let me just ask one more question along that line. 
President Clinton visited, as you pointed out, with Prime 
Minister Blair and with others, but sort of at what level does 
our Government really get solid commitments from our friends 
from other countries who are part of that G-8 group who have 
the wherewithal to be serious about this type of thing?
    Some of this can occur over in your shop, Ms. Bertini, and 
you visit with these people all the time, and they make 
commitments and they are helpful. But this is a very ambitious 
idea if it is taken really to the full extent, which probably 
requires some heavy lifting close to the top, if not the 
President of the United States himself, with others who have a 
long-term view also and who may say we sort of share this 
vision.
    So this is what I am wondering, even at this working level 
of this interagency committee, you make some selections of who 
seems to pass muster. For example, when the group gets together 
and you discuss universality of educational opportunity, 
democratic tendencies, which, on a scale of 1 to 10, may be 
somewhere--this becomes even more complex with world leaders 
trying to decide what we do at this point. If you had, for 
instance, Prime Minister Putin in the conversation, he might 
have a different set of ideas as to who is worthy, and he might 
be right. In other words, it may be in our interest to be 
involved in some countries that are sort of suspect on a number 
of these areas but have a lot of hungry children and have a 
need, we believe, for an American presence or a need for others 
who may come into their economies.
    We talk about this all the time on the China trade issue, 
that we are going to influence a country by having business 
people but also journalists, missionaries, everybody in the 
country, the engagement of the whole situation might change 
minds and hearts. But that is also a very big set of 
circumstances, and this is why I--I don't mean to hop on pages 
4 and 5, but when you get into the selection of countries and 
who sustains this and the time frame and their ideals, that is 
a complex set of questions in terms of our international 
diplomacy.
    Secretary Glickman. Well, I think perhaps Cathy may want to 
comment on this, too, but let me just quickly state that the 
President made this a priority in Okinawa. There was a 
significant interest there. It is true, however, that this 
initiative cannot be sustained unless there are other folks 
involved, and it can't just be the United States only, although 
we do provide I guess between 30- and 50-percent generally of--
--
    Ms. Bertini. Fifty-percent the last 3-years.
    Secretary Glickman. Fifty-percent the last 3-years of the 
receipts of the World Food Program. So we are a big player 
here.
    But I think this again points out why you have to have the 
PVOs. The non-governmental organizations working with and 
cooperatively with the World Food Program have got to be in a 
position to help us direct where these things are going, 
because I would hate to see a central decision made by the U.S. 
Government with respect to each one of these projects, you 
know. I think we need to set up the thematic organization that 
needs to be accountable, but ultimately it is on the ground 
that is going to decide where it is going to be most effective.
    The Chairman. Ms. Bertini?
    Ms. Bertini. Yes, thank you, Mr. Chairman. It will need to 
be a simple list of what are the criteria in terms of what 
countries should be involved, but I think perhaps an example, 
maybe a stark example, is Afghanistan. If girls can't go to 
school, clearly they are not committed to education for all; 
therefore, it would be assumed that would not be a country 
where we would propose that we would have a program here.
    However, there might be a program where there would be a 
commitment to education for all, but still very few girls in 
school. In that case, I think we would have to put some sort of 
an agreement together with the Government that we will come, 
but the girls' enrollment has to increase by a certain amount 
each time or else we can't continue over the long term. So I 
think those are some of the kind of issues that we have to work 
out together.
    If I could address a couple other issues you mentioned, 
first of all, on the broader scale, if we are to be in an 
advocacy role, and, in fact, if we are to promote this idea 
that every child should eat at school, there are really two 
ways to go.
    One, it could be a totally American project and proposal, 
managed totally by USDA working with the PVOs, WFP, whomever it 
chooses to work with. The plus side of that is that then USDA 
could manage every part of it. The negative part of that is 
that no other countries will really particularly want to 
participate in something that is strictly and totally a 
bilateral American project.
    The other side, of course, if it is multilateral, which is 
the way that I think it is being discussed, then we have to 
discuss certain things. Certainly advocacy, getting other 
countries involved, requires the involvement of an 
international or multilateral institution, and that is, I 
think, a key place where WFP can come in working with USDA. The 
management in terms of the program in each country then is more 
or could be more flexible.
    When we talk about this over the long term, there are 
several--in terms of the importance of congressional 
involvement and leadership and decisionmaking here, there are 
several points that the Secretary has made. One is if we are to 
use the expertise of the domestic folks, then there may need to 
be some legislative changes to allow that. Another is that 
currently when USDA gives us, or AID, for that matter, gives 
funding to us or to PVOs, they can pay for the internal 
transportation cost in poor countries if they give us funding 
for emergencies, but not funding for development. And now if we 
are trying to get a school feeding program up in some of the 
poorest countries in the world, they don't have the funds 
available to provide the transportation. So that is something 
that also could be looked at. And I don't believe that requires 
additional funding because it could come out of the total 
package, whatever the total package is, if I am not mistaken.
    A third issue that I think the PVOs are probably best 
suited to answer is the issue about the process, and the 
process of the Policy Council and how it works. And my guess is 
that the PVOs would have some good thoughts about ways to 
streamline that process while still having the oversight 
responsibility at USDA.
    So those are some of the technical things that we can see 
at least early on, and then on the longer term, of course, the 
commitment over the long term for food, because assuming that 
this is a successful launch, I am sure everyone is interested 
in providing the wherewithal to continue the program, because 
1-year of a school feeding program is almost nothing at all. It 
is really long term.
    The Chairman. I thank you for those clarifications. 
Clearly, as you pointed out, in the poorest of the poor the 
ability to get a program, to interact with us or with other 
countries is limited, and yet those are countries that we are 
going to have to be thoughtful about.
    The other point I want to make is that out of this 
committee we have already passed legislation which would say 
our country cannot have a sanction with regard to food. But 
that has not passed two Houses of the Congress, and as a matter 
of fact, there are disputes about using food as a sanction, as 
a weapon, within our own Congress, our own Government. So that 
is something we will have to resolve in due course, but it does 
get into this international diplomatic aspect.
    I appreciate your coming. Let me just say before I recess 
the hearing--which I am going to do because we will have the 
swearing in of Senator Miller at 11 o'clock, and obviously 
Senators will want to be there for that very important 
ceremony. That will be followed, as I understand, by a roll 
call vote on a cloture petition, and then I will be back, and 
maybe other Senators with me, for four very important 
witnesses. So I apologize to those witnesses and to all of you 
who have been faithful in viewing this hearing, but we will 
have to try to work with our colleagues on the floor for a few 
moments, and I hope people understand.
    We thank you both very much for coming.
    [Recess.]
    This hearing is called to order again, and the Chair would 
like to call the panelists: Dr. Beryl Levinger, Senior 
Director, Educational Development Center, and Distinguished 
Professor, Monterey Institute of International Studies; Ken 
Hackett, Executive Director of Catholic Relief Services; Ellen 
Levinson, Executive Director of the Coalition for Food Aid; and 
Carole Brookins, Chairman and CEO of World Perspectives, 
Incorporated.
    We thank you very much for your patience, but we have had a 
remarkable ceremony, greeted a new colleague, heard his maiden 
speech, which is a tribute to our departed colleague. And the 
roll call vote has occurred, and now we are back in business, 
and we appreciate so much your staying with the hearing, and 
those in the audience who likewise share our enthusiasm for 
this.
    I am going to call upon you in the order that I first 
mentioned you, first of all, Dr. Levinger.

   STATEMENT OF BERYL LEVINGER, SENIOR DIRECTOR, EDUCATIONAL 
   DEVELOPMENT CENTER, AND DISTINGUISHED PROFESSOR, MONTEREY 
       INSTITUTE OF INTERNATIONAL STUDIES, MONTEREY, CA.

    Dr. Levinger. Good morning, Mr. Chairman and colleagues. 
Thank you for inviting me to share my views this morning on the 
world school feeding initiative. Before I begin my testimony, 
just let me say a few words of introduction about myself.
    As Chairman Lugar has already mentioned, I work with 
Educational Development Center, but what is relevant about my 
career actually is that I have worked in the area of 
international education and poverty alleviation for more than 
30-years and have provided short-term and long-term technical 
assistance to more than 70-countries in the area of education, 
health, and nutrition. And in the last 15-years, I have 
authored three major books that are particularly relevant to my 
testimony today: a comprehensive review of international school 
feeding programs published by USAID; a book published by UNDP 
on the relationship between health, nutrition, and learning 
outcomes; and then, finally, a review of factors that 
contribute to human capacity development, also published by 
UNDP.
    I would like to take this opportunity to share with you, if 
I might, what I have learned in the course of this academic 
work and on-site technical assistance in terms of what 
difference school feeding might or might not make. And I am 
going to focus my remarks first of all on situations of extreme 
poverty, and I would like to begin by addressing the area of 
learning outcomes.
    There is a substantial body of research to support the 
following assertion: The level of a student's cognitive 
performance is, in part, a function of the adequacy of his or 
her diet. The importance of this research is that it 
establishes a theoretical and empirical framework for a major 
claim made by the supporters of the initiative, namely, that 
when such programs provide malnourished participants with an 
adequate diet, learning can be reasonably anticipated--learning 
in the form of cognitive development, to be sure.
    Unfortunately, this assertion is only partly correct, and 
we need a caveat to make that assertion fully correct. Let me 
share with you what that caveat is, namely, again, meaningful 
learning and meaningful cognitive development will occur only 
when a facilitative learning environment is present to 
complement the food that a child receives. Food alone just 
doesn't do it. And we know that because for generations upon 
generations we have been saying man does not live by bread 
alone.
    In the late 1960s and in the early 1970s, it was assumed by 
many researchers that the brain changes produced by 
malnutrition led directly to an impairment of learning which 
was often irreversible. Well, great news. In recent decades, 
this position has been abandoned and, in fact, reversed. 
Currently, the most widely accepted hypothesis is that 
malnutrition exerts its major influence on behavioral 
competencies through dysfunctional changes in attention span, 
responsiveness, motivation, and emotionality rather than 
through a more direct impairment of the child's ability to 
learn. This situation implies hopeful prospects for the 
reversibility of the effects that occur when a child is hungry 
or malnourished. But what it also says to us is that we need to 
create facilitative learning environments so that teachers, for 
example, can provide feedback and encouragement while engaging 
children in stimulating learning tasks. In most developing 
countries, this entails investments in teacher training, texts, 
and other learning materials.
    The truth today is that most schooling in the developing 
world is far from facilitative. Children sit in severely 
overcrowded classrooms, or outdoors, with poorly trained 
teachers, and spend countless hours repeating meaningless 
phrases in a language they often do not understand. They have 
no books, no blackboard, and frequently, no desks or chairs.
    We are all too familiar with the results of this 
environment. Millions of children never enroll in school 
throughout Africa and Asia, and millions more drop out before 
completing the first four grades of primary.
    For those who do attend, little learning takes place. In 
one recent study in Ghana, a study that was sponsored by USAID, 
fewer than 3-percent of all sixth graders had achieved basic 
literacy and math skills as stipulated by the curriculum. That 
is fewer than 3-percent on a test that was designed so that the 
average pass grade should have been 90-percent.
    Similar results have been noted in other African countries 
that have undertaken the rather daunting task of measuring 
student mastery of curriculum objectives. In an environment of 
such extreme educational impoverishment, school feeding may get 
more children to come to school, although, as I will show in a 
moment, this assumption is questionable; but it is doubtful 
that feeding alone will get them to learn more. Why? Because 
the educational environment in which the feeding is going to 
occur allows very little learning to take place.
    In my written testimony, I have cited two studies. In one, 
food alone was offered to children, and in the other, feeding 
was accompanied by an enriched learning environment. 
Sustainable long-term academic performance gains were only 
observed in the educationally enriched setting.
    In summary, then, the proposed initiative needs to include 
provisions for a portion of the commodities to be monetized, 
preferably over a 3-year period. Funds obtained through 
monetization should be used by PVOs to engage parents as 
partners in the educational enterprise, to train teachers in 
active learning methods, to create motivational textbooks and 
other learning materials that are cognitively stimulating, to 
improve sanitation so that schools are not major disease 
vectors, and to create classroom learning environments that are 
conducive to learning. I don't mean that these things should be 
carried on maybe by somebody else at some future time to be 
negotiated. What I am saying is that these components need to 
be intimately integrated at the outset, at the design phase, 
into a school feeding program.
    Let me just say a few words, if I might, on another 
assumption that has been made, which is the question of school 
feeding in relation to attendance and enrollment. Many studies 
have explored this relationship, and it is interesting that the 
most positive relationships are generally found in the least 
rigorous, most impressionistic studies. When control groups 
have been used, when retrospective attendance data consulting 
records has been used, we get findings that are far more 
ambiguous.
    I should also note in passing that PVOs have taken the lead 
in performing the most ambitious--in terms of methodological 
techniques--studies.
    In general, we find that where parental perceptions of 
school quality are very low and poverty is extreme, feeding 
cannot overcome the factors that lead parents to keep their 
children, particularly their daughters, at home. However, if 
families live at the border of the terrain that separates 
extreme poverty from marginal self-sufficiency and if the 
quality of schooling is at least sufficient so as not to dampen 
or even destroy demand, then and only then can feeding bring 
children, especially girls, to school.
    Once again, though, the quality of schooling is critical in 
terms of school feeding impact, and, once again, I might add, 
there is a critical role for PVOs to play in improving 
educational quality through the partial monetization of 
commodities, not for in-country transportation, not to buy the 
equipment with which to cook or prepare the food or to store 
the food but, rather, to actually improve the schooling that is 
attached to the feeding.
    Finally, allow me to comment on how school feeding programs 
influence nutritional status and hunger, the third area of 
expected program benefit. There is little evidence to support 
nutritional status change as a result of school feeding, and 
there are many reasons for this. Parents often provide one less 
meal at home so that the food received in school is not 
additive in terms of a child's dietary intake. Programs are 
often too irregular in terms of the percentage of days in the 
school year where food is actually served for logistical 
reasons, for management reasons; and, therefore, when we 
realize that a child to be well nourished has to eat 365-days-
a-year, the school feeding program simply doesn't offer enough 
of a difference.
    In conclusion, I would like to offer a few additional 
observations relative to the proposed initiative.
    Number one, host governments are expected to significantly 
contribute to the cost of the program over time. Is there a 
hidden trade-off between adequately paid teachers, quality 
textbooks, sufficient classrooms, parental outreach, and the 
costs of a feeding program? I believe there is, and it is not 
one that I for one would be willing to make. I do not believe 
that food alone can lead to improvements in learning, 
attendance, and enrollment in those countries where poverty is 
rampant and school is nothing more than meaningless repetition 
of phrases in chaotic conditions.
    School lunch programs did work in the U.S. precisely 
because the quality of education in our schools was high enough 
so that the lunch was that extra added factor that made all the 
difference in the world.
    When you think about the costs of the proposed initiative 
and the fact that governments are going to be picking up those 
costs, I think we also have to take a moment to do some stock 
taking. Typically, in developing countries, the budget that is 
spent on learning--that is to say, expenses other than school 
construction, recurrent costs--is something on the order of $5 
to $10 per year per child. What would it cost to do school 
feeding when a country is to assume that responsibility? 
Probably something at least on the order of $5 to $10 a year 
per child at a minimum, and probably quite a bit more. How 
could this be sustainable when countries are already taxing 
their budgets to the extent generally of 22- to 25-percent, and 
they can't even get textbooks and teachers into classrooms?
    U.S. PVOs must play a major role in implementing the 
proposed initiative. This is my second concluding point. Such 
organizations as CRS, CARE, and Save the Children already have 
major education initiatives underway that are designed to 
introduce the qualitative elements so necessary if parents are 
to enroll their children in school. Make no mistake about it. 
In study after study, we see that parental perception about 
school quality is often the key factor in determining whether 
and for how long a child is to attend.
    Third, monetization with at least a 3-year window for 
spending monetized funds is necessary in order to introduce the 
education quality elements that are required to transform a 
school feeding program into a potent intervention. We must not 
mistake food for education or food-aided education with food 
for learning. This is where children actually learn and where 
presence in a schoolhouse truly contributes to overall 
development goals. Food for learning must be our vision, and to 
enact it we must build strong, productive linkages between the 
consumption of a meal and everything else that occurs during a 
typical school day.
    PVOs have an important role to play in the transformation 
of school feeding programs into food for learning, and I hope 
that the proposed initiative entails specific provision for 
their participation as well as for their monetization of 
commodities so that the needed investments in quality can be 
made. Only then will feeding lead to meaningful societal 
transformation.
    Mr. Chairman, thank you for this opportunity to testify, 
and I will be glad to answer any questions you might have.
    [The prepared statement of Dr. Levinger can be found in the 
appendix on page 89.]
    The Chairman. Thank you very much, Doctor.
    Mr. Hackett.

  STATEMENT OF KENNETH HACKETT, EXECUTIVE DIRECTOR, CATHOLIC 
                RELIEF SERVICES, BALTIMORE, MD.

    Mr. Hackett. Thank you very much, Mr. Chairman. I really 
appreciate this opportunity to testify on behalf of the 
Catholic Relief Services, which is the official relief and 
development agency of the U.S. Catholic community. I am also 
here on behalf of a group of American private voluntary 
organizations that have a very long history in the management 
of U.S. foreign food assistance. We as a group deeply 
appreciate the efforts of Ambassador McGovern and Senator Dole, 
the administration, and others who have dramatically raised the 
profile on this important topic.
    The global school feeding initiative is founded, it seems, 
on the most laudable of American humanitarian principles: our 
concern for and solidarity with the poor overseas. CRS and the 
other PVOs have experience in managing U.S. Government-funded 
school feeding programs since the very inception of those 
programs in the 1950s, and I would like to take an opportunity 
to discuss the lessons we have learned in our implementation of 
those programs. Our comments are intended to enhance what is an 
already commendable initiative and strengthen it so that it 
will have a lasting impact on those it is designed to assist.
    I just returned on Sunday from Zimbabwe where I spent a few 
days meeting with my staff from 14 countries in East and 
Southern Africa. And I have to pick up on what Senator Durbin 
said about the AIDS crisis. It is having a tremendous impact 
demographically and on the very fabric of society. And it is 
initiatives like this one that may contribute to an improvement 
of the lives of those people who are being so dramatically 
affected by the HIV/AIDS pandemic throughout Africa and other 
parts of the world. So we look at it in a very positive way.
    We have learned over the years in managing food-assisted 
education programs in schools and at the community level that 
any program designed to improve access and impact on primary 
education must be broader than simply school feeding, as Dr. 
Levinger said. In fact, there is a great coincidence between 
most of what she said and what I have to say here, so I will 
shorten it because you have heard it and we agree with it.
    We must involve communities directly in such programs. Such 
programs must be multi-faceted, multi-year, and be 
comprehensive in their approach. And to truly impact on 
learning and academic achievement, food must be complemented by 
other interventions. In our programs, we have activities with 
the development of PTAs, and other types of involvement of 
parents directly in schools. In addition, we have programs for 
micronutrient supplements, vitamin A and things like that. But 
then you also have to deal with the teachers and the management 
of the school. The learning environment in its totality, as Dr. 
Levinger said, is most important.
    We believe that food can be an important resource, but it 
alone is not sufficient to improve educational achievement.
    Improving educational quality and coverage in economically 
impoverished communities calls for a long-term and reliable 
commitment in policy and multi-year resources. The provision of 
food for only short periods of time does not allow time for 
systems and standards and relationships to be sufficiently 
established and would jeopardize, if they were only run for 
short periods of time, any impact.
    Resources allocated for the program must be in addition, we 
feel, to the current levels of U.S. Government food assistance. 
Not to do so takes away from ongoing programs that successfully 
address the needs of some groups of people. And as has been 
said--and we were very happy to hear Secretary Glickman's 
testimony--complementary dollar funds are also essential for 
success. To be most effective, this program must be targeted to 
the neediest communities in the neediest countries, and only in 
the context where food is an appropriate intervention.
    The American private voluntary community has experience, it 
has capacity, and it is interested in this concept. You may be 
aware that over the last decade the engagement of that 
community in education programs has diminished--diminished 
significantly. This is due in part to shifting public 
assistance priorities, increasingly burdensome and costly 
management requirements, and lack of financial commitments to 
accompany available food assistance. We would like to increase 
our engagement, and as I say, we are heartened by what the 
Secretary had to say about how the program should be designed. 
But to do so, I propose that a global agreement be established 
between the administrative agencies of the U.S. Government--if 
that be USDA, so be it--and the PVOs, the American PVOs, to 
identify, develop, and carry out effective programs of food and 
other resources. Such an agreement would help to address the 
increasingly burdensome regulations and costs that the American 
PVO community have encountered in operating food assistance 
programs.
    The American PVOs, such as CRS, should have direct access 
to food and cash resources in a manner similar to what has been 
evolved with the UN agencies. This would heighten the interest 
in the involvement of American PVOs and their constituents. The 
American PVO involvement is important, we believe, for two 
reasons:
    First and foremost, we have extensive experience in 
implementing school feeding and other types of programs. We 
have community contacts, not just national government contacts. 
We have built up trust, and we have existing programs.
    Second, we believe and understand U.S. official 
humanitarian foreign assistance to be essentially an expression 
of American solidarity, and we see American PVOs as the best 
expression of American solidarity.
    The global school feeding initiative and the subsequent 
momentum it has generated in Congress and in the administration 
are positive signs of general concern for the poor and the 
sense of responsibility for those in need. We would like to 
harness the good will and the energy evident in the initiative 
to have a real impact on improving the quality of education for 
children in the developing world.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Hackett can be found in the 
appendix on page 96.]
    The Chairman. Thank you very much, Mr. Hackett.
    Ms. Levinson.

 STATEMENT OF ELLEN S. LEVINSON, EXECUTIVE DIRECTOR, COALITION 
                 FOR FOOD AID, WASHINGTON, DC.

    Ms. Levinson. Thank you. My name is Ellen Levinson, Mr. 
Chairman. I am government relations adviser at the firm 
Cadwalader, Wickersham & Taft. Today I am here on behalf of the 
Coalition for Food Aid, which is comprised of private voluntary 
organizations with whom you are familiar who do international 
work. In particular, I will focus my oral remarks, because I 
hope that my written statement can be submitted for the 
record----
    The Chairman. It will be completely recorded.
    Ms. Levinson. I want to focus on some of the issues that 
you have been asking regarding this large-scale global food for 
education initiative.
    First of all, how would it be implemented or how could it 
be? It is something that takes planning, but there is a desire 
to get a kick-start this year. We have surpluses in the United 
States, and I think that the President's announcement reflects 
the need and desire in the agriculture community to get some of 
these surpluses off the market today and to use them 
constructively overseas. I can see where the kick-start is a 
very positive step, both in the desire and needs of our 
American agriculture community to move their commodities, and 
to try to target it to something positive. Thus, initiative is 
going forward.
    On a positive side of the initiative, in the first year, in 
the pilot phase little time can be taken to allocate 
commodities under Section 416. We have to ship them by the end 
of December 2001. Thought needs to be given about not just 
distributing those commodities, because that is a short period 
of time to identify appropriate targets and start a whole 
distribution system. Find where there could be additionality 
and expansion of programs or new programs that are ready to go 
and may be ready to start distribution. The monetization that 
Dr. Levinger is referring to, the sale of the commodity in the 
country and the use of the proceeds for building the basic 
structures for education, is an important element that could be 
very constructive in the first year of the program. Those funds 
could actually be spent over several years under the current 
law. You could sell in 1-year and use those funds over several 
years to support the development of the PTAs, the school 
structures, the training of teachers, etc., to create the 
environment where education can take place and also where 
distribution can take place, This is an approach that could be 
very positive this year.
    A second thing that could happen very positively in a pilot 
program is to search for new ways and innovative approaches to 
using food assistance. PVOs are trying a variety of ways, and 
probably others are as well, to make these programs more 
effective. I know that you are going to be hearing soon from 
the private sector. There may be some ways in this pilot phase 
to see how the private sector can partner with the 
organizations tat do the work on the ground and with local 
administrators--how they could come together in some more 
creative ways. Allowing this flexibility would be very 
important.
    Third is an issue that Mr. Hackett just raised, and that is 
an administrative issue. This year will be a jump-start of the 
program. Secretary Glickman pointed out that they have been 
doing a lot more food aid than usual at USDA, a significant 
amount, and their staffing for that is pretty thin. It is 
important to somehow facilitate the relationship between USDA 
and non-governmental groups. It is very easy for USDA and the 
World Food Program to relate because they have what is called a 
``Global Agreement.'' When USDA wants to make an additional 
commitment to WFP, they can just add on to it.
    However every time a PVO comes up with an idea or a plan, 
it has to go through a much more rigorous review. However, if a 
PVO has been in this field for many years--I mean, you are 
talking about organizations. I know my members work in over 100 
countries and have on-ground expertise and really capabilities, 
and they show best practices. They have computer systems for 
tracking and monitoring the food. They have in place 
measurements to not only measure the food and how much gets 
there, but the impact, in other words, progress of the program. 
So if they have these best practices in place and they can 
basically show that they are capable of handling these 
programs, that the USDA should enter into this type of a global 
agreement that Mr. Hackett referred to, that would help USDA in 
its administrative struggles as well.
    So, for example, if Catholic Relief Service had identified 
three particular locations where it wanted to pilot some 
interesting work or additional work, it could do this under 
this agreement without USDA feeling the obligation or need to 
go through a whole series of analysis and time constraints.
    So I think some of these ideas could come forward in this 
pilot regarding countries of choice. Many of these PVOs are, 
you know, now that there is a pilot announced, looking at their 
programs, I know, and I am sure the World Food Program is, too, 
because they are dealing a lot with national governments and 
probably looking there to see which ones would be appropriate.
    I would be happy to answer any other questions that you 
raise, but I just wanted to throw out some of those ideas for 
you directed to some of your questions. Thank you very much.
    [The prepared statement of Ms. Levinson can be found in the 
appendix on page 105.]
    The Chairman. Well, we thank you for that testimony.
    Ms. Brookins.

  STATEMENT OF CAROLE BROOKINS, CHAIRMAN AND CHIEF EXECUTIVE 
       OFFICER, WORLD PERSPECTIVES, INC., WASHINGTON, DC.

    Ms. Brookins. Thank you, Mr. Chairman. First of all, my 
name is Carole Brookins, and I am Chairman and CEO of World 
Perspectives, which is a company I founded 20-years ago to do 
analysis and consulting globally on political, economic, and 
trade factors affecting agricultural markets and the global 
food system. And I appreciate the opportunity to be with you 
today to discuss this very exciting concept.
    I certainly applaud everything that has been said all 
morning, both starting with Ambassador McGovern and Senator 
Dole, and, of course, Secretary Glickman, and, your very 
important kick-off to this hearing today. I have considered 
this issue myself for several years, and I think that the 
question that we are really grappling with is not the merit of 
the concept, as you have said, but the best means to carry it 
forward.
    I can remember back in the 1970s--I guess when you get old, 
this is what they pay you for, your memory, but, you know, I 
can remember back in the 1970s when Henry Kissinger said we 
would ``end hunger in my generation.'' You know, well, Henry is 
still around and we still haven't ended hunger. And I think we 
have been grappling, even with the recent World Food Summit, to 
try to get our arms around this again.
    But when we take a look at this concept and how to carry it 
forward, I truly believe if we implemented appropriately and 
effectively, it could be to the next 50-years what Food for 
Peace brought to the world's hungry over the last century, and 
on top of it have a very profound impact on the economic 
development of countries around the world.
    In terms of the merit of the concept--I will submit my 
testimony to the record--I think we all can agree on the 
importance that this concept brings. But I think that we have 
to throw one other point in--that humanitarianism and good 
citizenship and good business are not mutually exclusive. Think 
that has been something that has been very much lacking in this 
morning's hearing, with the possible exception of how this very 
much fits into a child labor initiative. In fact that is where 
my ideas began came a year and a half ago.
    If we want to eliminate child labor, we are going to have 
to give children education, and good education. And we are 
going to have to give incentives for parents and the ability 
for parents--to let their children go and get an education 
while they have to be concerned about making sure they have 
adequate diets.
    Whereas the President made some very important statements 
on this issue in Okinawa, the great focus of the G-8 now is on 
eliminating the digital divide. I think that we have kind of 
jumped a lot of steps, because before we can aspire to ending 
the digital divide, we must first end the nutrition divide and 
are bringing many, many more people in the marketplace.
    Now, as to the means to the end, a very wise person once 
told me when I was starting my business that 10-percent of a 
successful business venture is the idea and 90-percent is the 
implementation. So with this in mind, I would like to raise a 
few considerations that I think are critical to putting a 
sustainable program in place instead of just getting good 
advocacy discussion about something and rounding up the usual 
suspects again, as we have done on many occasions.
    First of all, we know that bilateral and multilateral food 
aid programs have been operating for more than 50-years, that 
some have been more effective than others. There have been 
problems in implementing other school lunch programs over the 
years such as cost-effectiveness and practical implementation 
issues, including logistical problems which have been 
identified. But, most importantly, the sustainability of the 
programs has been a problem because most such programs have 
relied almost exclusively on government budget support. And I 
think when we look even at surplus commodity disposal, trying 
to get the European Union and others to agree even to a tonnage 
commitment on food aid, apart from a monetary commitment, has 
been a real problem in maintaining a sustainable supply.
    This isn't to say that the World Food Program's work has 
not been highly successful in many cases and that many non-
governmental organizations, including the leadership here at 
this table, have not been extremely effective in delivering 
both food and technical assistance in a cost-effective way that 
has obviously been provided by donors, by official donors 
through bilateral or multilateral assistance. And they bring 
tremendous resources and experience to this program.
    I agree that all these players need to be involved in 
creating a sustainable initiative. However, I think that past 
experience and the structure of today's globalized economy 
means that this ambitious goal cannot be sustainably achieved 
by simply adding on to the broad programs that are already 
being carried out, or by using only public sector financing and 
administering only through national and multinational public 
sector initiatives. If there is anything we have learned from 
the last two decades in particular, it is that the tremendous 
momentum of wealth creation, flexibility, innovation and 
productivity, and real-time response is in the private 
commercial sector.
    So I would like to set out my own implementation 
guidelines. First, this must be a real private and public 
partnership initiative. And when I say that, this is not just a 
matter of PVOs or NGOs and Government entities, but also 
getting the private commercial sector involved, both private 
corporations and foundations. There is not one country that I 
have visited--and I am sure the same is true for you, Mr. 
Chairman--where we have not seen our companies involved very 
directly in community outreach wherever they are in the 
developing world. And what better way to meet the two goals of 
creating a highly trained workforce and also creating real 
buying power in a country than beginning to focus on getting 
children educated and getting children adequate nutrition.
    Second, this must not be a food dumping initiative. It 
cannot be a one-year commitment when we have surplus 
commodities, or when there is an election coming and, we have 
to show that we are moving product. This must be sustainable 
over time in terms of both monies pledged and commodities 
pledged. It must have a multi-year commitment to it.
    Third, it must not be layered into existing bureaucratic 
agendas. Too many good ideas get swamped or drowned in 
bureaucratic channels. We have seen this over and over again, 
and that is why I suggested a year and a half ago to set up a 
new private-public institute which I have named Food for 
Education and Economic Development [FEED]. FEED could be 
mandated much as the National Endowment for Democracy was in 
1983 and has had a tremendous record with a very targeted, 
focused mandate involving both Government money and private 
money.
    And fourth it must begin, as far as I am concerned, on a 
small targeted scale, be it at a national level, or be it, as 
Ellen Levinson said, at a very local level. You need to come up 
with very solid terms of reference, and you need to do it also 
on competitive submissions. Instead of our going to people and 
saying; ``Look what we have for you,'' let's find out who the 
people are out there who really want to put something together 
and let them bring to us what they are going to do to implement 
it, and then help them achieve it. I think this would set a 
whole new groundwork, a new base in place for the way we deal 
with these initiatives around the world by letting people who 
are ready come to us and letting us then say, yes, we will help 
you achieve your goal.
    Fifth must also support global market development. I think 
we have to look at this in terms of our whole farm program and 
the way we look at our farm program. Does it make sense to be 
taking acreage out of production or doing other things when 
there is such a need for resources around the world? Perhaps we 
could console some new iteration to freedom to farm in the next 
farm bill that we could include in terms of farmers planting 
certain land for this purpose.
    In closing, I think it is perfect timing to move this 
forward, but I would urge that the Senate Agriculture Committee 
seriously only support this proposal with a view to directly 
involve, engage, and commit the private business community, 
both local and global, in designing and implementing the 
programs to be carried out.
    Thank you very much, and I would be happy to answer any 
questions.
    [The prepared statement of Ms. Brookins can be found in the 
appendix on page 112.]
    The Chairman. Thank you.
    The collective output of you four is formidable, and I 
would really start with Dr. Levinger's thought. First of all, 
it is a sobering set of facts which she has as far as the 
learning situation, that learning doesn't necessarily occur 
because children are fed. At least she has sort of said there 
is a different threshold, and that is an important concept. As 
we think through all of this, our instincts are clearly to feed 
people, and that may still be where we end up. In other words, 
as you get more and more goals on top of this, as I was in 
dialogue with Secretary Glickman, democracy, human rights, all 
sorts of things, this becomes a very ambitious program in which 
we sort of take on the entire agenda of our Government. But, 
still, that is why we asked you to come, to bring some 
perspective to this, because it is a school lunch program, the 
idea of schools--and you have described, Dr. Levinger, what, 
unfortunately, is the plight of schools in many countries in 
which we might be involved. They are pretty rough-and-tumble 
situations, ill-financed, bad teachers, bad curriculum, 
language that children don't understand, and the achievements 
are low.
    Now, then this is more jarring, and I noted down not only 
in your testimony but just to make a note to myself that 
nutritionally people may not be better off if the parents 
simply don't feed them another meal, sort of subtract that, so 
that the number of calories per day might not change. Now, that 
is very sobering. How in the world do we affect that? In other 
words, you can't have guidelines for parents, or at least that 
is so intrusive, that is sort of beyond capability of 
administrative, to make sure that this is in addition to. But 
in real life, this might be the case, that many people don't 
learn very much more and, in fact, are not even much better off 
nutritionally.
    So those are pretty tough criteria to start with, and then, 
finally, the sustainability, which all of you have talked 
about. Clearly, there is always enthusiasm for the use of 
surplus commodities, but my own view of this is that not much 
of that is going to make much difference to what we are talking 
about today, because very quickly all of you in one way or 
another get into so-called monetization. That is a way of 
saying we are going to sell the commodities. You know, the 
typical view of this is that we have excess food in this 
country, maybe in bulk form or processed form, as the case may 
be, but let's say the bulk form and so we don't need it and we 
ship it rather than waste it.
    But what you are pointing out is, of course, a practical 
measure. This is of very little use to most of these programs 
in that form, and what is of great use is that you sell it, get 
money for it.
    What you are saying, Dr. Levinger, is that you sort of 
shore up these schools. If the whole educational initiative is 
$5 a child a year or some very modest amount like that, and you 
can get $5 a child a year out of selling some of these 
commodities in Country X, well, you have doubled at least the 
amount of educational opportunity for that child.
    Already we are some steps divorced from the basic concept 
here. The idealism of getting food into children because we are 
shoring up the school so that the school will be good enough 
that the children will go to it, learn something, therefore, 
like our school lunch program, have a benefit. You wanted to 
make a comment?
    Dr. Levinger. I just wanted to be clear that what I was 
describing was a partial monetization, certainly not a full 
monetization.
    The Chairman. I understand. But it still is there, that 
somehow we sell in these countries, and for other purposes 
maybe shore up the school, but maybe the infrastructure, the 
whole preparation process, whatever.
    Now, Ms. Brookins, you have also added child labor here, 
and that is an important objective, and others have touched 
upon that, too, Senator Harkin earlier this morning, and it 
might very well be a part of this if the parents support the 
children going to the school and the children stay there and 
all the rest of it. You know, I think as you get into this--and 
you as a very sobering panel, you have just realized how many 
problems people have all over the world. You try to fix one 
problem here, and, of course, you are right in the middle of a 
whole host of them, and anybody who has done any work in any 
other country understands that. But, still, it is useful to 
remind ourselves how much we want to do all at the same time.
    But, nevertheless, we are here in the Agriculture 
Committee, and we are dealing with a food program and with USDA 
trying to guide us through. So I think, we have to understand 
that, too, that our means are somewhat limited, even if our 
aspirations are very high.
    Now, I think all of you have said that the global agreement 
that sort of permeates this discussion has been largely between 
USDA and the international group. But PVOs, after all, are 
doing most of the legwork, or could, and the problem is there 
are a lot of them. They come in all sizes and shapes. Some are 
good and some are not so good. So what I think you are 
qualifying to say is that if a PVO sort of qualifies, begins to 
meet the criteria as a group that has a track record of doing 
very well in this, is very sophisticated, there may be sort of 
a blue ribbon group--or maybe that is not the right 
terminology, but there is some--so that global agreements can 
occur with these groups without, as you say, negotiating one by 
one each of these innovations. And that I think is critically 
important, but it is an important point just in terms of our 
own organizational infrastructure in this country that we have 
these kinds of agreements and we do so at the outset. We sort 
of find out who is in the field, who has a track record of 
achievement, who could do a lot if, in fact, we do not have the 
bureaucratic problem of paper shuffling each time one of you 
gets involved in this.
    So I would hope that whoever is writing up this legislation 
sort of includes that concept because I think it is just very 
important.
    I noted, Ms. Brookins, that you pointed out that the 
problem of sustainability as we have discussed it today--and I 
tried to touch upon this a little bit in my colloquy this 
morning--really does boil down to annual appropriations. That 
is what we do here, and this is why the presence of Senator 
Cochran was very important this morning. Senator Cochran I saw 
on the floor during our recess, and I told him how much I 
appreciated his coming over. He has to wrestle with the hard 
realities of all of this, namely, after it leaves our care and 
concern as an authorization committee. And I think it will have 
very strong support in this committee, and that was manifested 
this morning.
    But then people come in that are part of our economy and 
say if you are going to spend X number of dollars somewhere in 
the world, there are some Americans that need help. Well, we 
can say we can't be that hard-hearted, that myopic, but the 
fact is, as some of you have commented, our foreign aid has 
been declining precipitously year after year. It has gone on 
now for several years without surcease, just a secular decline.
    I made a mission to see the President 1-year after he was 
just re-elected and asked him really to overrun OMB and to ask 
for $1.5 billion more, just for the sake of argument, and he 
did ask for $1 billion more, and he got it. That was the only 
singular reverse of this secular pattern. But, nevertheless, it 
has gone downhill ever since.
    So we are in an atmosphere in which in our own activities 
in Government, whether they are in nutrition or whether they 
are just foreign aid for whatever purposes, development, 
language training, whatever we do, we are doing less of it--and 
in terms of real dollars, much less. And you sort of have a 
line out in the future.
    So we are talking about making water run uphill here 
because even if you have a lot of surplus commodities and you 
monetize them in some way and you don't account for them 
exactly dollar for dollar and you get the PVOs and some other 
money from American philanthropy--and a lot of that would have 
to be a part of this, I think. Still, there is an outlay. 
Senator Cochran has people that have to deal with this.
    Now, in a practical way, we have had Dr. Borlaug and people 
like this that I admire very much before the Committee. They 
are talking about world hunger, about what we need to do in the 
next 20-years, 50-years, and so forth to feed the world. And 
Dr. Borlaug as a witness in India, in China, now in Africa, is 
there. And you finally get back to cutting-edge research, 
things that we need to do to increase either yield or quality 
or resistance to problems or what have you.
    Now, this committee 3-years ago passed a bill for 5-years 
of cutting-edge research, $600 million, $120 million a year. 
But the appropriators in the House X'ed it out, year one, year 
two, you know, a wonderful idea, everybody from the scientific 
community, humanitarian community, the food community in here 
praising that initiative and it passed the Senate, but not the 
appropriators.
    Now, USDA to their credit has managed to figure out how to 
get $120 million for this year, and I give great credit to 
Secretary Glickman and his staff, even over the protests of the 
House people who are still trying to X it out. But when we are 
talking about sustainability, we are talking about the politics 
of appropriation and competing interests in this country. And 
this is why these PVO and global agreements you are talking 
about are not only interesting in terms of bureaucracy, they 
are probably what we are talking about in sustainability. 
Catholic Relief Services, it goes the course every year, 
regardless of the ups and downs of politics here, changes in 
committees. So, you know, that somehow we have to sort of 
factor into this.
    Then, you know, we talked earlier this morning, Ambassador 
McGovern started with 300-million-children in the world. But 
each of you seemed to me to be saying you need to walk before 
you run, and the targeting of this is probably important. 
Nobody would deny that. We went through it with Secretary 
Glickman. What are the criteria? And he had some for this 
working group that does this sort of thing.
    But, of course, then it becomes much less ambitious, and 
the people whose enthusiasm for feeding all children say here 
you folks are already tailoring this down and, furthermore, 
maybe the countries, as one of you suggested, who really want 
it--I think you said that, Ms. Brookins. That makes common 
sense not to force it on somebody who doesn't want it. But if 
you are looking at it from a humanitarian standpoint, there are 
a lot of countries that have very indifferent and sometimes 
strange governments. And so what do you say to them? You are 
out of luck, history has dealt you a bad hand in terms of your 
leadership?
    Well, maybe we have to say that, as a practical matter, 
even with our ideals, and we may not be able to intrude into 
some countries. And Sudan--I mentioned Dr. Frist's experience. 
It is clear the Government of Sudan is trying to systematically 
starve a large part of its own country. This is unthinkable, 
but it happens in the world, and that is not the first instance 
of this in which food is used as an internal weapon for 
political hegemony of one group over another.
    So that is a pretty tough prospect. Even if Dr. Frist gets 
in with some money to try to work on the AIDS problem there, or 
whatever, for the good of all of us, it is still pretty tough 
to run a school lunch program.
    So there has to be some willingness for this, but I suppose 
we are going to find out a very checkered pattern in terms of 
willingness and how much intrusion countries are prepared to 
have.
    The people over in Ms. Bertini's shop in Rome have a pretty 
good idea of where the politics of this lies, that we don't 
have to reinvent the wheel here. But as we are trying to think 
through it in terms of our own governmental response, we all 
have to become more sophisticated. And you can be helpful in 
this well beyond your testimony today and what you have already 
looked at.
    I noted, for example, Dr. Levinger, for the benefit of all 
who are witnessing the hearing, you have given some website 
references to studies and books that you have written which 
give a great deal of the research and background, and that 
would be helpful. And I know many will want to avail themselves 
of that additional testimony that comes in that form.
    Well, I am sorry to have conducted this monologue, but I 
want to stimulate the juices again with all of you. As a 
practical matter, what do you foresee as you take a look at 
this from our perspective in the Senate or the House as a 
practical way of proceeding, say in the year ahead or in a 2-
year period of time? You have suggested the monetization of the 
commodities under 416. That sort of takes us out to the end of 
calendar year 2001, perhaps, as sort of one place where we get 
some money from that standpoint. USDA already has indicated 
that administratively they are doing a lot of things, and the 
Secretary indicated a whole lot of programs that were 
impressive.
    So something is going to happen, anyway, given the impetus 
of the Secretary and people who have testified, but what should 
we do as a practical matter both in the short run but, 
likewise, in terms of the sustainability of this idea, 
something that might grow, that might be here for a long while? 
Does anybody have a contribution? Mr. Hackett?
    Mr. Hackett. If I may start, Mr. Chairman, I think the time 
invested right now in trying to formulate how this thing could 
work over a 5-year horizon is well worth it. It allows then the 
American private voluntary agency communities that are not 
deeply involved in this right now because of the burdensome 
issues that I mentioned before to re-engage, and to re-engage 
their constituencies, which is particularly important.
    The Chairman. Yes.
    Mr. Hackett. So I think the investments that actually are 
starting this afternoon with USDA people and the PVO 
communities and WFP are well worth it, and we can begin to 
formulate kind of a road map for the longer term. But we have 
got to think out at least 5-years.
    The Chairman. Well, I like the idea of re-engaging 
constituencies that you have and others have. I talked about 
this broad decline of foreign assistance or even foreign 
interest, but it comes from the decline of constituencies in 
this country. People have found other things to be not only 
more important, but have relegated this to such low importance.
    So it may be that the private people have been discouraged 
or have gotten some other signals, but maybe as you say, to re-
engage, sort of find the rest of the world out there, and some 
very exciting possibilities.
    Yes, Ms. Levinson?
    Ms. Levinson. Well, I would like to add to that. What has 
happened--and Dr. Levinger was--she went through the 
literature. When it was found that really school feeding 
couldn't have an impact on nutrition and sustainability is 
difficult, turning it over to a government, in the early 1990s 
USAID under Public Law 480 Title 2 program had asked the PVOs 
who were conducting those types of programs, the school 
feeding, the distribution type programs, straight, basically, 
mainly just distribution, to basically eliminate those programs 
under Title 2. And what happened at that point--and Catholic 
Relief Service took a lead in this, but other PVOs got involved 
and, actually, Dr. Levinger was very much a consultant in this 
whole process. There was what we would call a reinvention of 
school feeding so that--remember, you were just saying before 
these are hard issues to tackle if you have a working family, 
if you have a family that doesn't have enough money and they 
make their children work, how can you compensate? Well, they 
have created models to take care of that with take-home 
rations. There are other ways to attack that, and they have 
come up with methods to do that through distribution, as well 
as, of course, you do have to have better education. But you 
have both.
    So there are methods, and one of the things that could be 
done in this pilot program, since these PVOs have already 
developed these new methods and have been doing it under 
agreements with USAID over the past 6-years, this would be a 
good opportunity, this pilot phase, also, to work with some of 
those new techniques, and also to perhaps build in some new 
ideas that if there could be partnerships with some of the 
local agricultural interests or businesses who would perhaps 
want to also somehow contribute and participate, that may be 
another element to explore in this pilot phase.
    The Chairman. Yes?
    Ms. Brookins. Well, I want to pick up on that because I 
really do believe that there has been a serious lack here. If 
there is going to be a meeting today with USDA of the PVOs and 
World Food Program, why is it that representatives of the 
business sector have not been involved, be it from U.S. 
commodity groups and farm groups, but also non-agricultural 
people? I have talked to people at several of the business 
councils who think this is a very interesting idea. Many of our 
corporations are on the ground everywhere virtually in the 
world, and are doing humanitarian outreach in the local 
communities, helping children with education and schools, that 
type of thing. Plus, if you are looking at logistical support 
in-country and you are looking at developing logistical 
support, especially in local or regional areas, what better 
place to be looking than the business community.
    Would you let me digress for 1-minute on that?
    The Chairman. Yes.
    Ms. Brookins. Several years ago, I had the privilege during 
President Reagan's administration of heading up a task force on 
food hunger and agriculture in developing countries. It was 
organized at the State Department. We had some people coming in 
to testify, to talk to us about different things. Someone came 
in at one point and was talking about the problem AID had 
experienced delivering seed in Zaire--it was Zaire at that 
time, you know. In any case, he said how difficult it was 
because they had to get the seed delivered before the planting 
season, but the Government had no trucks and no agency to 
deliver the seed.
    But someone from the private business community was sitting 
at the table and said to the aid official there; ``If you 
travel through Zaire throughout the country, is there any 
product that you see everywhere in the country?'' And the AID 
official said, ``yes, there is a beer that is produced in 
Kinshasa.'' So this business person said, well, all you need to 
do then is contract with the brewery distributor and get those 
seed bags put on the beer trucks.
    I didn't mean to digress, but I want to make my previous 
point once again, that it is the private sector which produces 
the tax receipts which allows the Federal Government to spend 
money for all these different priorities. But then it comes to 
a program like this where we have businesses located everywhere 
in the world, and commodity groups and farm groups, who are 
involved everywhere in the world, and they are not being 
brought to the table.
    I am not representing, I am not lobbying for any of them, 
but I think they need to be involved in helping to plan and 
design these types of activities.
    The Chairman. I think that is a very, very important point. 
Let me just sort of underline it anecdotally from my own 
experience, the hunger programs in my home State. It is not a 
new finding. The U.S. Conference of Mayors and others have 
suggested that there are many more demands on the food pantry, 
the food banks in our States, than has been the case in recent 
years. This is counterintuitive to many people because they 
would say at a time of fuller employment in the country and 
greater income that these demands should not be occurring in 
this way. But, in reality, they are. And as I have visited with 
the major food banks in our State, the problem comes down--and 
Second Harvest is an umbrella organization--to such figures as 
96-billion-pounds of food in this country are not needed 
ultimately by households, by restaurants and what have you. 
Ninety-five billion of this is wasted. It is destroyed, and it 
comes down to the point that some of you are making. To convert 
part of that 95 requires money. It has to be packaged and 
preserved and transported, distributed in some fashion. And so 
the problems and the costs of doing all of that as opposed to 
simply disposing of it on site are economically difficult.
    Now, I have proposed legislation to enhance the deduction 
for companies but, likewise, to include for the first time 
partnerships, individual farmers, other people who would 
receive the same tax treatment for doing this, so that, that 
somehow changes the economics to a point that there is some 
reason why some of this might be convertible to food banks and 
others in our country.
    A lot of people think that is a great idea and have 
cosponsored it. It hasn't happened because tax legislation is 
very difficult to pass this year, and all the vehicles thus far 
have run into some problems, but, you know, hope springs 
eternal and each time around we try this one out.
    But it makes the point in a domestic situation that food is 
there, but converting this situation either by transportation, 
monetization, some other form, to something that is going to 
help the people that we are talking about here today really 
takes a lot of planning and sort of a stream of decisions.
    Now, that does involve the business community. In fact, 
even without the deductions, large corporations routinely make 
shipments of huge cartons of all sorts of things coming into 
the food banks, and they are taking on warehouse capacity, and 
you know many of these places. And they send the word out and 
station wagons come in, in one case to 150 agencies, small 
churches, sort of underneath the radar screen of life in my 
State. About 10-percent of people are receiving some benefits 
from all this.
    So this is a significant thing just in our own country, but 
as I say, converting it to abroad really requires even more 
imagination, and it has to have American companies because they 
have the ability to do this sort of thing, and in many cases, 
the eagerness to do this. We are routinely in touch with 
foundations of people who want to know how they would go about 
doing this and do not have the expertise.
    So we want to get these folks involved right along with the 
PVOs or however they want to set up their situations, because 
at the outset they have to be on the ground or sustainability 
of it won't occur for those of us who are in the temporary 
business of politics and appropriation. Some of you will be 
around a lot longer to sustain this.
    Well, I appreciate very much your coming and your patience 
and, likewise, your thoughtfulness in responding to these 
questions. And perhaps you will be stimulated by this to think 
of some more questions as well as answers. So if you have 
supplemental testimony, we would appreciate that.
    Yes?
    Ms. Levinson. I want to thank you very much because I have 
to say listening to you is a very great joy for those of us who 
work in the field in this area to hear someone put it all 
together verbally, just sitting there. It is just--you know, it 
makes me happy just to be here and hear it. So thank you.
    The Chairman. Thank you.
    [Whereupon, at 12:37 p.m., the Committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             July 27, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0293.001

[GRAPHIC] [TIFF OMITTED] T0293.002

[GRAPHIC] [TIFF OMITTED] T0293.003

[GRAPHIC] [TIFF OMITTED] T0293.004

[GRAPHIC] [TIFF OMITTED] T0293.005

[GRAPHIC] [TIFF OMITTED] T0293.006

[GRAPHIC] [TIFF OMITTED] T0293.007

[GRAPHIC] [TIFF OMITTED] T0293.008

[GRAPHIC] [TIFF OMITTED] T0293.009

[GRAPHIC] [TIFF OMITTED] T0293.010

[GRAPHIC] [TIFF OMITTED] T0293.011

[GRAPHIC] [TIFF OMITTED] T0293.012

[GRAPHIC] [TIFF OMITTED] T0293.013

[GRAPHIC] [TIFF OMITTED] T0293.014

[GRAPHIC] [TIFF OMITTED] T0293.015

[GRAPHIC] [TIFF OMITTED] T0293.016

[GRAPHIC] [TIFF OMITTED] T0293.017

[GRAPHIC] [TIFF OMITTED] T0293.018

[GRAPHIC] [TIFF OMITTED] T0293.019

[GRAPHIC] [TIFF OMITTED] T0293.020

[GRAPHIC] [TIFF OMITTED] T0293.021

[GRAPHIC] [TIFF OMITTED] T0293.022

[GRAPHIC] [TIFF OMITTED] T0293.023

[GRAPHIC] [TIFF OMITTED] T0293.024

[GRAPHIC] [TIFF OMITTED] T0293.025

[GRAPHIC] [TIFF OMITTED] T0293.026

[GRAPHIC] [TIFF OMITTED] T0293.027

[GRAPHIC] [TIFF OMITTED] T0293.028

[GRAPHIC] [TIFF OMITTED] T0293.029

[GRAPHIC] [TIFF OMITTED] T0293.030

[GRAPHIC] [TIFF OMITTED] T0293.031

[GRAPHIC] [TIFF OMITTED] T0293.032

[GRAPHIC] [TIFF OMITTED] T0293.033

[GRAPHIC] [TIFF OMITTED] T0293.034

[GRAPHIC] [TIFF OMITTED] T0293.035

[GRAPHIC] [TIFF OMITTED] T0293.036

[GRAPHIC] [TIFF OMITTED] T0293.037

[GRAPHIC] [TIFF OMITTED] T0293.038

[GRAPHIC] [TIFF OMITTED] T0293.039

[GRAPHIC] [TIFF OMITTED] T0293.040

[GRAPHIC] [TIFF OMITTED] T0293.041

[GRAPHIC] [TIFF OMITTED] T0293.042

[GRAPHIC] [TIFF OMITTED] T0293.043

[GRAPHIC] [TIFF OMITTED] T0293.044

[GRAPHIC] [TIFF OMITTED] T0293.045

[GRAPHIC] [TIFF OMITTED] T0293.046

[GRAPHIC] [TIFF OMITTED] T0293.047

[GRAPHIC] [TIFF OMITTED] T0293.048

[GRAPHIC] [TIFF OMITTED] T0293.049

[GRAPHIC] [TIFF OMITTED] T0293.050

[GRAPHIC] [TIFF OMITTED] T0293.051

[GRAPHIC] [TIFF OMITTED] T0293.052

[GRAPHIC] [TIFF OMITTED] T0293.053

[GRAPHIC] [TIFF OMITTED] T0293.054

[GRAPHIC] [TIFF OMITTED] T0293.055

[GRAPHIC] [TIFF OMITTED] T0293.056

[GRAPHIC] [TIFF OMITTED] T0293.057

[GRAPHIC] [TIFF OMITTED] T0293.058

[GRAPHIC] [TIFF OMITTED] T0293.059

[GRAPHIC] [TIFF OMITTED] T0293.060

[GRAPHIC] [TIFF OMITTED] T0293.061

[GRAPHIC] [TIFF OMITTED] T0293.062

[GRAPHIC] [TIFF OMITTED] T0293.063

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             July 27, 2000



      
=======================================================================

[GRAPHIC] [TIFF OMITTED] T0293.064

[GRAPHIC] [TIFF OMITTED] T0293.065

[GRAPHIC] [TIFF OMITTED] T0293.066

[GRAPHIC] [TIFF OMITTED] T0293.067


</pre></body></html>
